<html>
<title> - RESOURCES NEEDED TO PROTECT AND SECURE THE HOMELAND</title>
<body><pre>[Senate Hearing 116-189]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-189

          RESOURCES NEEDED TO PROTECT AND SECURE THE HOMELAND

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________

                              MAY 23, 2019

                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-698 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
        Michael J. Lueptow, Chief Counsel for Homeland Security
                Michelle D. Woods, Senior Policy Advisor
            Christopher S. Boness, Professional Staff Member
               David M. Weinberg, Minority Staff Director
         Alexa E. Noruk, Minority Director of Homeland Security
              Michelle M. Benecke, Minority Senior Counsel
         Samuel Rodarte Jr., Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Peters...............................................     2
    Senator Portman..............................................     8
    Senator Hassan...............................................    11
    Senator Paul.................................................    13
    Senator Carper...............................................    16
    Senator Hawley...............................................    18
    Senator Scott................................................    21
    Senator Romney...............................................    23
    Senator Lankford.............................................    25
    Senator Rosen................................................    28
    Senator Sinema...............................................    30
Prepared statements:
    Senator Johnson..............................................    43
    Senator Peters...............................................    44

                               WITNESSES
                         Thursday, May 23, 2019

Hon. Kevin K. McAleenan, Acting Secretary, U.S. Department of 
  Homeland Security
    Testimony....................................................     2
    Prepared statement...........................................    47

                                APPENDIX

Minors, Families, Asylum chart...................................    54
Statements submitted for the Record:
    Church World Service.........................................    55
    National Treasury Employees Union............................    56
Responses to post-hearing questions for the Record:
    Mr. McAleenan................................................    67

 
          RESOURCES NEEDED TO PROTECT AND SECURE THE HOMELAND

                              ----------                              


                         THURSDAY, MAY 23, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:16 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Paul, Lankford, Romney, 
Scott, Hawley, Peters, Carper, Hassan, Harris, Sinema, and 
Rosen.

            OPENING STATEMENT OF CHAIRMAN JOHNSON\1\

    Chairman Johnson. Good morning. This hearing will come to 
order.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 43.
---------------------------------------------------------------------------
    The hearing title is ``Resources Needed to Protect and 
Secure the Homeland.'' We will review the budget of the 
Department of Homeland Security (DHS). We have the Acting 
Secretary of Homeland Security, the Honorable Kevin McAleenan, 
here to testify. I want to, first of all, appreciate and thank 
you for your long service to this country, and in particular at 
this moment where we are grappling with so many issues: the 
aftermath of an unprecedented level of disasters with 
hurricanes and fires in California, hurricanes obviously in the 
gulf coast, the disaster that is occurring at the border right 
now. And if we could just quick put up our chart.\2\
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Johnson appears in the Appendix 
on page 54.
---------------------------------------------------------------------------
    Not only do we have it on the chart, but we had an event in 
Oshkosh over the weekend that required a giveaway, so I quick 
produced out of my factory some cups with that exact same 
chart. But what it shows is how out of control this problem is. 
In the first 7 months of this year, we have over 300,000--the 
total is actually 312,000 individuals coming over the border 
illegally and being apprehended either as an unaccompanied 
alien children (UAC) or as part of a family unit. I know these 
are not for public release yet, so they are initial numbers. 
But in the first 3 weeks of May, another 65,000 unaccompanied 
children but, again, primarily people coming in as family units 
and were apprehended at the border, in between the ports of 
entry (POEs), and over 97,000 total apprehensions. So we are on 
a path of breaking again, from I guess it was March, 103,000, I 
believe it was April, 109,000 or 106,000, and now we will be 
beyond that in May.
    So this is a growing problem. It needs to be taken 
seriously, and it is what you and the men and women that you 
lead are grappling with. God bless you for doing it. I mean 
that in all sincerity. I know because I have been to the 
border. We are going to be going to the border with the Ranking 
Member and a couple other Senators later today. We know what 
you are having to deal with, and it is an impossible task.
    So, again, I just appreciate your dedication, your 
willingness to serve, and with that, I will turn it over to the 
Ranking Member.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Well, thank you, Mr. Chairman. And, Acting 
Secretary McAleenan, we appreciate you being here today.
    I am going to defer on any of my opening comments. I know 
our time is limited. We have members that have a meeting coming 
up, and I know you are on a hard stop as well. I know Members 
of this Committee want to ask questions, so I will ask 
unanimous consent (UC) to put my opening statement in the 
record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appears in the 
Appendix on page 44.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection. I will ask the same 
request.
    Senator Peters. That sounds good.
    I will turn it over to you.
    Chairman Johnson. Mr. Secretary, it is the tradition of 
this Committee to swear in witnesses, so if you will stand and 
raise your right hand. Do you swear that the testimony you will 
give before this Committee will be the truth, the whole truth, 
and nothing but the truth, so help you, God?
    Mr. McAleenan. I do.
    Chairman Johnson. Please be seated.
    The Hon. Kevin McAleenan is the Acting Secretary for the 
Department of Homeland Security. He has been serving in this 
position since April 2019. Prior to this appointment, Mr. 
McAleenan had a distinguished career at U.S. Customs and Border 
Protection (CBP) where he recently served as Commissioner of 
CBP since January 2017. In 2015, Mr. McAleenan received the 
Presidential Rank Award, the Nation's highest civil service 
award. He holds a bachelor degree from Amherst College and a 
J.D. from the University of Chicago Law School. Mr. McAleenan.

TESTIMONY OF THE HON. KEVIN K. MCALEENAN,\2\ ACTING SECRETARY, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. McAleenan. Thank you, Mr. Chairman, and thank you, 
Ranking Member Peters, and distinguished Members of the 
Committee, Senator Portman. I appreciate the opportunity to 
appear before you today. It is a sincere honor to serve as 
Acting Secretary and to represent the dedicated men and women 
of the Department of Homeland Security. I really do believe 
that DHS has the most compelling mission in government: to 
safeguard the American people, our homeland, and our values. As 
Acting Secretary, I intend to work with this Committee--and I 
have been in the last 6 weeks--and serve as an advocate for the 
Department to ensure our people have the resources and 
authorities they need to carry out their critical missions on 
behalf of the American people.
---------------------------------------------------------------------------
    \2\ The prepared statement of Mr. McAlennan appears in the Appendix 
on page 47.
---------------------------------------------------------------------------
    As we are highlighting the President's 2020 budget, I do 
want to point out a few of the key areas where there are 
critical investments across DHS and the multi-missions that we 
carry out. I want to ensure this Committee that we are not 
going to lose any momentum on our multiple missions from 
cybersecurity to disaster response as we see what is happening 
this morning with the floods in Oklahoma, the tornado that 
touched down in Missouri. We are going to stay on top of all of 
these mission sets, and I do want to highlight some of the 
investments there. And then, of course, I will speak to the 
border security crisis, which this Committee is very focused on 
and understands very well.
    The President's budget requests funding for critical 
missions across the Department. For our Cybersecurity and 
Infrastructure Security Agency (CISA), the budget requests $1.3 
billion to assess evolving cybersecurity risks, protect Federal 
Government information systems and critical infrastructure. The 
budget also supports the launch of Project 2020, a new 
initiative designed to get all States to a baseline level of 
election infrastructure and cybersecurity, well before the 
national elections of 2020.
    The budget supports additional transportation security 
officers to enhance security effectiveness and stay ahead of 
increasing costs and growing traffic at airports nationwide. 
The $3.3 billion for Transportation Security Administration 
(TSA) also includes funding for an additional 700 screeners and 
350 computed tomography (CT) units.
    For the Federal Emergency Management Agency (FEMA), this 
budget provides a significant increase in the Disaster Relief 
Fund (DRF), begins implementation of new requirements in the 
Disaster Recovery Reform Act, and funds critical operational 
positions identified in the 2017 hurricane season after-action 
report. And for the U.S. Coast Guard (USCG), this budget 
continues efforts to fund the Offshore Patrol Cutter and 
advances the Polar Security Cutter program.
    But with regard to border security and immigration 
enforcement, as you are well aware, we are in the midst of an 
ongoing security and humanitarian crisis at the Southwest 
Border. I think your chart puts that in stark context, stark 
relief, Mr. Chairman. Almost 110,000 migrants attempted to 
cross without legal status last month, the most in over a 
decade, and over 65 percent, as you highlight, were families 
and unaccompanied children. That means over 40,000 children 
entered our immigration system in a single month.
    The President's budget will help address this for 2020. 
First it requests $523 million for the humanitarian crisis. 
This money will allow us to provide better care for those we 
come into contact with through apprehension, custody, 
detention, and removal.
    Second, to address the border security aspects of the 
crisis, it requests $5 billion in funding for the construction 
of approximately 200 miles of a new border wall system, a 
proven deterrent requested by our front-line agents, and it 
also calls for 750 Border Patrol agents, 273 CBP officers, and 
over 660 U.S. Immigration and Customs Enforcement (ICE) front-
line and support personnel.
    The budget request will make much-needed upgrades to 
sensors, command-and-control systems, and aircraft to help our 
men and women combat criminals who are profiting from human 
suffering.
    While our 2020 budget will help address this crisis, we 
will need additional funding much sooner. Given the scale of 
what we are facing, we will exhaust our resources before the 
end of this fiscal year (FY), which is why the Administration 
sent a supplemental funding request to the Congress over 3 
weeks ago. In addition to the $3 billion in that request for 
the Department of Health and Human Services (HHS) to care for 
unaccompanied children, the request includes $1.1 billion for 
the Department of Homeland Security and would provide $391 
million for humanitarian assistance, including temporary 
migrant processing facilities at the Southwest Border, $530 
million for border operations, to include our surge personnel 
expenses and increased transportation and detention costs, and 
$178 million for operations and support costs including pay and 
retention incentives for our operational personnel as well as 
upgrading our information technology (IT) systems.
    The supplemental request is critical, but unless Congress 
addresses the pull factors--namely, our vulnerable legal 
framework for immigration--children will continue to be put at 
risk during a dangerous journey to our border. Without these 
authorities and resources, the situation will remain untenable, 
and while DHS will continue to do all it can to manage this 
crisis in an operationally effective, humane, safe, and secure 
manner, every day that Congress does not act puts more lives at 
risk and increases the burden on the system.
    Mr. Chairman, Mr. Ranking Member, I have been doing this 
for a long time. This is the third time I have been in a 
leadership role during a migration surge at the border of 
families and children, both in 2014 and 2016, at the end of the 
last Administration. We have more than doubled those two crises 
combined in the first 7 months of this year, and we are still 
in the middle of that effort.
    We are doing everything we can to address it, as you will 
see, as you go down to the border again today. On the medical 
front, we had about 10 people providing medical care at our top 
central processing center as of a year ago. We now have 50 in 
that center alone. There is 24/7 coverage in all of our highest 
traffic sectors, and we are expanding. We have U.S. Coast Guard 
medical teams on the ground. We have Health and Human Services 
Public Health Service Commission Corps on the ground with us 
working to protect especially children that come into our 
custody.
    We have expanded our facilities. We have already put up a 
thousand spaces of soft-sided facilities in two locations. We 
are going to have 10,000 by the end of next month to address 
this growing crisis. We have gotten tremendous support from the 
Department of Defense (DOD), the National Guard, from our State 
and local partners, and we are working closely with 
nongovernmental organizations (NGOs) and charities to try to 
help those in need. But none of that is going to be enough. We 
are still seeing too much tragedy, and this week and this month 
have been no exception. Forty percent of our agents are off the 
line doing processing, transportation, care, hospital watch, 
and feeding and cleaning of migrants in our custody. This leads 
to significant border security risks that I do not think we can 
tolerate given the drug epidemic and the dangers to our 
communities across the country.
    My second week in this job, I went to see the 9/11 Memorial 
Museum to get reinspired at the origin of the Department of 
Homeland Security, and it was a good reminder that Homeland 
Security, when we started, was nonpartisan. It was a 
nonpartisan mission that all Americans supported. I know this 
Committee works in that spirit. Through your prior hearings to 
become expert on this 
and help inform the American people, for your efforts to go to 
the border--and I know you are going again--this is a unique 
approach this Committee is taking to actually grapple with the 
problem based on a shared set of facts and solve it. I want to 
work with you and the Ranking Member and both parties. Our 
front-line agents and officers need it, and they deserve that 
support from this Committee. The children being put at risk do 
as well, and the security of our border and the future of our 
region depend on it.
    So I appreciate the opportunity to appear before you today, 
and I look forward to the dialogue this morning.
    Chairman Johnson. Thank you, Mr. Secretary.
    I am happy to defer my questioning to you or to Senator 
Portman, just to keep things moving. Did you want to ask your 
questions now?
    Senator Peters. Yes, that would be great.
    Chairman Johnson. OK. Go ahead, Senator Peters.
    Senator Peters. Well, thank you, Commissioner McAleenan, 
for your comments. I know you mentioned in your opening 
comments the challenges, the medical challenges in particular, 
that you are having along the border.
    But last evening, it was reported that a young girl from El 
Salvador died last year while in custody, but her death was 
undisclosed publicly until last night, which made her now the 
sixth migrant child to die after crossing the Southern Border 
in less than a year.
    We all agree that we must absolutely secure our borders, 
but the death of children--and I know you agree with this. The 
death of children in custody is simply unacceptable. But first 
we must identify what went wrong and ensure that this does not 
happen again. So some brief questions.
    Yes or no, does every child in CBP custody have access to a 
pediatrician?
    Mr. McAleenan. No.
    Senator Peters. Does the CBP have clear protocols regarding 
the transfer of children to a hospital when presenting acute 
symptoms, especially when we look at the aggressive nature of 
this current flu outbreak that we are seeing along the border?
    Mr. McAleenan. Yes, and as Commissioner, I directed that 
all children coming into our custody be screened by a certified 
medical professional, and that is what we have undertaken steps 
to accomplish, both with our extension of our contract to get 
medical professionals into our facilities as well as partnering 
with the U.S. Coast Guard and the Public Health Service 
Commission Corps, and that effort is extensive and ongoing, 
with 65 people being brought to the hospital every day, watched 
and supported by agents and officers.
    So this is a massive effort going on the border to protect 
children, and I know we have saved dozens and dozens of lives 
over the past several months.
    Senator Peters. Although there have been cases--in fact, we 
had a recent case of a 16-year-old that passed away who was not 
taken to the hospital. So there are obviously gaps that have to 
be filled.
    Mr. McAleenan. He was both screened and offered medical 
care, and we are going to look forward to the findings of the 
Inspector General (IG) to see if we can do better. One of the 
key areas there, though, I have to highlight is the fact that 
HHS does not have enough funding for bed space for teenage 
males, and that is the main arriving unaccompanied child right 
now. So we are not able to move teenage males as expeditiously 
as we should be to the better situation for care within Health 
and Human Services, and we need that support from Congress in 
the supplemental.
    Senator Peters. I have asked many of your colleagues in 
prior DHS leadership and I will ask you again today: How long 
is too long to detain a child?
    Mr. McAleenan. So detention for a child is for the safety 
of the child. That is the only reason to do it. We do not 
believe that children should be detained in Border Patrol 
stations very long at all. We would like to move them as 
swiftly as possible to Health and Human Services, to a more 
appropriate setting for unaccompanied children, where they can 
be placed with an appropriate sponsor through HHS' processes. 
And I think that is the best approach. I would like to get that 
to 24 hours to 40 hours and try to comply at all times with the 
standard in the Trafficking Victims Reauthorization Protection 
Act (TVRPA), which is 72 hours.
    Senator Peters. So I get the sense you are saying any time 
is really too long to detain a child, so you try to expedite--
--
    Mr. McAleenan. An unaccompanied child. A child arriving 
with a parent, I do believe we should be able to have them in 
an appropriate setting with access to education, recreational 
space, medical care, and a courtroom where we can finish an 
immigration proceeding upon arrival at the border as opposed 
to----
    Senator Peters. As quickly as possible.
    Mr. McAleenan [continuing]. Not finishing that. As quickly 
as possible, yes. There is no desire to detain children in any 
capacity for very long at all.
    Senator Peters. It has been reported that DHS is requiring 
FEMA, CISA, TSA, and other components to contribute staff to 
various border security missions. Securing our Northern and 
Southern Borders must be our top priority. We have a Northern 
Border in this country as well, two borders, and I am concerned 
about the patient impact on readiness in my State of Michigan 
as well as other Northern Border States.
    So my time is short, but could you give me quickly a brief 
synopsis of the specific duties that these folks are being 
asked to do on the Southern Border--FEMA, CISA, TSA?
    Mr. McAleenan. So as in any crisis, we do call on 
volunteers from across DHS to respond. Last year--or 2017, 
during the crises of Hurricane Harvey, Hurricane Irma, 
Hurricane Maria, we had up to 2,000 people deployed from across 
the Department at any given time. Right now we have about 250 
volunteers that are deployed, and what I have asked all of our 
leaders to do is make a risk assessment and carefully decide 
who is available to come support this crisis. But they are 
doing all kinds of duties, from attorneys to commercial 
driver's license holders that are helping transport migrants, 
to folks just simply helping with food service and care of 
people in our custody.
    So it is a variety of missions, and we are very fortunate 
to have volunteers that are willing to help out in a crisis.
    Senator Peters. Obviously, a shortage of personnel is an 
issue for you, and even before the recent increase in migrant 
traffic at the Southern Border, it was clear that CBP was not 
adequately staffed to secure our borders and facilitate the 
other mission, which is to move legitimate trade and travel at 
our ports of entry. The CBP workload staffing model developed 
under your leadership as the CBP commissioner identifies a 
shortfall of thousands of CBP officials. Again, this is even 
prior to the current situation. To help address this gap in 
personnel, Senator Cornyn and I have introduced some bipartisan 
legislation, also Senator Portman has joined as well, to give 
clear authority and direction to hire much-needed CBP officers 
to the levels that were identified in the model that you put 
together. I am especially concerned about critical personnel 
being moved from Michigan to the Southern Border while Michigan 
continues to remain two of the three busiest border crossings 
in the Nation.
    So, Acting Secretary, will you commit to working with 
Congress to advance this legislation and close the hiring gaps 
that we currently have with CBP officers?
    Mr. McAleenan. I will, Senator, and appreciate greatly your 
support to additional hiring of CBP officers. It is one of the 
most critical occupations both for our security and 
facilitating trade and travel. We have netted 2,000 CBP 
officers over the last 5 years with Congress' support, and this 
year we are expecting to net over 1,200 additional CBP 
officers. Our hiring is very successful for CBP officers now 
based on a number of changes we have made with support from 
Congress, but I do think a model-based staffing strategy that 
accommodates the growing traffic, growing security threats, is 
an appropriate way to plan for the future, and I appreciate the 
legislative efforts to support that.
    Senator Peters. Great. Well, I appreciate your support in 
getting this legislation passed and signed into law to support 
your efforts.
    Mr. Chairman, I have a little remaining time, but I will 
defer that so we make sure everybody has a chance to ask 
questions. We will stick to our strict 7-minute timeline.
    Chairman Johnson. Absolutely. I am going to use my 7 
minutes in little clips.
    We were talking a little bit about the hiring rate. Is it 
true that we have a greater hiring than attrition rate right 
now?
    Mr. McAleenan. For CBP officers, it significantly exceeds 
attrition. For our Border Patrol agents, it is much closer, 
unfortunately, to attrition, although we are making progress 
recovering from the shutdown period.
    Chairman Johnson. That is good news. I am highly concerned 
with the current crisis, particularly until when you do not 
have the resources and you are requiring all these volunteers, 
that Border Patrol officers will start quitting. I am highly 
concerned about the attrition rate. Have you seen any uptick at 
all on that in the recent crisis?
    Mr. McAleenan. So our attrition is higher than I would like 
for Border Patrol agents. My first decision as Acting Secretary 
was to extend a 5-percent retention incentive to our agents who 
I think deserve it and are working incredibly hard at the 
journeyman level. So we need to continue to look at all ways to 
maintain our tremendous professional workforce, and I do think 
they need to see a light at the end of the tunnel from this 
kind of crisis. And working with Congress to solve it 
legislatively I think is our best approach to do that.
    Chairman Johnson. Again, I want to urge all my colleagues 
here to support the emergency supplemental. It is just critical 
that you get that funding, and not just for HHS but the $1.1 
billion that DHS is requesting in that as well. Senator 
Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman.
    Mr. Secretary, we appreciate you coming back again, and you 
are here at a time where there is, without question, a crisis 
at the border. It is humanitarian. It is a drug crisis. It is 
an immigration crisis.
    Just to put some numbers around it, if you could help us 
just so people can understand what is going on, my sense is 
there are now over 100,000 people coming to the border. My 
sense is there is about a 75-percent increase compared to last 
year in the number of children who are showing up at the border 
and about a 400-percent increase in the number of families 
coming to the border, so not only higher numbers but more 
families with children. Is that accurate?
    Mr. McAleenan. That is exactly correct.
    Senator Portman. So it is overwhelming. And we appreciate 
your service and the service of the men and women of CBP and 
the Border Patrol who are trying to deal with this issue, many 
of whom are being pulled off their normal jobs, as I understand 
it, to deal with the humanitarian crisis. Is that accurate?
    Mr. McAleenan. That is very true. I mean, the processing 
and care of families and children is much more intensive, and 
to have 40 percent of our Border Patrol agents engaged just in 
that function, not on the line, not addressing the border 
security parts of their mission, is a crisis by any measure. I 
know you have been committed, Senator, to countering the drug 
epidemic in our country, especially the synthetic opioid 
concerns. I am very concerned we are missing drugs right now on 
that border due to this crisis.
    Senator Portman. What we are seeing on the drug front is 
pretty scary because we have finally some progress on the 
opioid front. For the first time in 8 years, we have seen some 
decrease in overdose deaths. But what is happening in my State 
of Ohio and around the country is you see a lot more crystal 
meth coming in from Mexico. It is pure, it is powerful, it is 
inexpensive. Frankly, there are not any more meth labs in 
places like Ohio. Why? Because it is so darn inexpensive and so 
powerful to just buy the stuff from the cartels coming up from 
Mexico. So you have heroin, fentanyl, cocaine, but now pure 
crystal meth.
    On that, since you raise it, what is the single most 
important thing that we could do today to stop the crystal meth 
from coming across the border?
    Mr. McAleenan. So the fiscal year 2019 budget does a 
tremendous amount for us in this regard, and we are going to 
deploy those resources. Nonintrusive inspection technology for 
the Southern Border is going to be able to dramatically 
increase the percentage of vehicles that we scan. It is going 
to be the single best tool we have to stop the increase of 
crystal meth.
    Senator Portman. So it is new technology that we have 
funded to be able to see if there is a truck coming through, 
for instance, a noninvasive technology to be able, in essence 
to see whether there are drugs there and then to be able to 
apprehend.
    Mr. McAleenan. Right. The two additional points I would 
make, though, is the investments in the border wall and the 
system around that--the cameras, the lighting, the roads that 
allow us to gain access--that will help us address the 
increasing incidence of hard narcotics coming between ports of 
entry. And then, third, resolving this crisis, our agents can 
be back focused on the border security aspects of their 
mission.
    Senator Portman. Not pulled off for the humanitarian----
    Mr. McAleenan. Those are the three things I would 
highlight.
    Senator Portman. Let us talk about push and pull factors 
for a second because ultimately what we are trying to do here 
in this Committee is to help you to be able to address this 
issue.
    On the push side, we talk a lot about the Northern Triangle 
countries being countries where there is a lot of poverty and a 
lot of corruption and reasons for people to want to leave. So 
we have talked about how to get aid and have it be more 
effectively deployed in those countries. I think there is a 
general consensus among at least Members of this Committee that 
we should do a better job, and can. However, we are still going 
to have huge wage differentials. There are still going to be 
issues in El Salvador, Honduras, and Guatemala that cannot be 
addressed simply by aid packages.
    So what are the pull factors? It seems to me the most 
important one right now, given this, again, 400-percent 
increase in families, 75-percent increase in kids, over 100,000 
people a month now coming over that border, is there something 
going on with the asylum system because they are coming over to 
seek asylum. They are coming to your officers. They are not 
trying to avoid law enforcement. In fact, the wall probably is 
not helpful in this regard in the sense that they are not 
trying to climb over a wall. They are coming forward and saying 
that they would like to get asylum.
    Tell us what happens, if you could, to these families when 
they approach one of your officers and ask for asylum. Are 
these individuals being processed? Are they being detained? Are 
they being allowed to go into the community? What is happening 
today?
    Mr. McAleenan. So you are absolutely right, Senator, on the 
pull factors, and I would actually use your Committee's chart 
on this point because you see in fiscal year 2015 there, Flores 
reinterpreted. That has been the essential driver, frankly, for 
the increased family units, is the fact that family units can 
no longer be detained together in an appropriate setting during 
a fair and expeditious proceeding to determine whether they 
have a valid asylum claim or other immigration rights, or----
    Senator Portman. Flores said that those family members with 
their children there are limited to 20 days, and that is in an 
emergency. Otherwise, they have to be released into the 
community. Is that accurate?
    Mr. McAleenan. That is correct. And that certainty and that 
knowledge--that they will be allowed to stay in the United 
States indefinitely, pending a court proceeding that could be 
years away, depending on what jurisdiction they are in--is a 
huge draw. The smugglers have capitalized on that. They are 
advertising that fact. We hear that routinely from our 
interviews of families. We see that in the media.
    Senator Portman. What percent of those families who come up 
to the border and, again, approach your officers and ask for 
asylum are being released into the community within days?
    Mr. McAleenan. One hundred percent.
    Senator Portman. One hundred percent?
    Mr. McAleenan. Yes, and they are not necessarily asking for 
asylum. They do not have to. They can go into an immigration 
proceeding and not have to present that case for potentially 
years.
    Senator Portman. When they go into the community, you say 
it can take a while. It is over 2 years in Ohio, you should 
know, before we can have a court hearing.
    Mr. McAleenan. Right.
    Senator Portman. It is over a 2-year period. What is the 
average around the country, do you know?
    Mr. McAleenan. The average is around 2 years, and in some 
jurisdictions it is even longer.
    Senator Portman. Two years before the immigration hearing 
takes place.
    Mr. McAleenan. Right.
    Senator Portman. And during that time period, can those 
individuals work?
    Mr. McAleenan. Yes, by and large, although we are looking 
at tightening the rules so that there is not an opportunity to 
take advantage of the system.
    Senator Portman. So they have a work permit. My 
understanding is they do not get the work permit immediately, 
but after a certain period of time. Is it 6 weeks?
    Mr. McAleenan. Right now it is in the 30 to 90-day range, 
that is correct.
    Senator Portman. And those individuals then are going to 
work. So if you were a trafficker, what you are telling people 
is, one, if you come to the border and seek asylum or even if 
you were coming to the border and seeking an immigration 
hearing, you will be released into the community for a couple 
of years, at least, before your hearing, and you will have the 
ability to work. And with the wage differential being able to 
make 10 times as much or sometimes as much as 20 times as much 
in the United States, do you think that is a factor?
    Mr. McAleenan. I think not only is it a factor; that is 
directly how smugglers are advertising the opportunity to come 
to the United States right now.
    Senator Portman. So ultimately it comes down to the jobs.
    Mr. McAleenan. Right.
    Senator Portman. We want to talk more about E-Verify at 
some point because we do not have the system to determine who 
is legal and who is not in our country, and we need to increase 
the mandatory use of E-Verify. Thank you, Mr. Commissioner, now 
Mr. Secretary.
    Mr. McAleenan. Thank you.
    Chairman Johnson. Thank you, Senator Portman.
    Again, there is a great deal of interest in this hearing. 
We will have a lot of attendance, so we allowed 7 minutes, but 
we are going to keep people right at 7 minutes, so, Senator 
Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Well, thank you, Mr. Chair and Ranking 
Member Peters. And thank you, Acting Secretary McAleenan, for 
being here to discuss all these important topics.
    Mr. Secretary, as I am sure you are aware, convicted 
American Taliban fighter John Walker Lindh is reportedly being 
released from Federal prison today. Last week, Senator Shelby 
and I sent a letter to the Bureau of Prisons expressing concern 
over the anticipated release of John Walker Lindh as well as 
108 other terrorist offenders scheduled to be released in the 
next 5 years. One of our concerns is the lack of adequate 
process to notify Federal, State, and local officials when a 
terrorist offender will be released.
    Mr. McAleenan, do DHS Fusion Centers receive information 
from the Bureau of Prisons or probation and pretrial services 
regarding the release of a terrorist offender? And what is your 
process for sharing this information with local authorities?
    Mr. McAleenan. That is a good question, Senator. I will 
look into that and get back to you on that.
    Senator Hassan. OK.
    So moving forward, can I count on you to work with relevant 
agencies to develop a strategy to ensure that all necessary 
Federal, State, and local officials have the information that 
they need to keep communities safe when these individuals are 
released?
    Mr. McAleenan. Yes.
    Senator Hassan. Thank you.
    Later today I am headed to the Southern Border with 
Chairman Johnson and Ranking Member Peters and Senator Hawley 
to assess the situation on the ground. I took a similar trip 
last year to talk to port officers and ICE detention officers. 
I was impressed by my visits to El Paso and McAllen, Texas, 
where I saw the robust screening effort conducted by CBP of 
incoming traffic from Mexico, and we have talked a little bit 
just now about some of the technology that helps officers kind 
of immediately look--see what is different in a car that on the 
surface looks like a typical car.
    However, stopping the drug cartels is not solely a matter 
of securing traffic coming into the United States. We have to 
attack the cartels' business model. That means stopping the 
flow of both drug money and weapons that travel southbound into 
Mexico from the United States.
    Unfortunately, as I saw on my trip last year, our current 
southbound screening effort is inadequate. We were told we need 
expanded facilities, more personnel, and updated technology in 
order to try to strengthen our ability to stop the flow of guns 
and money back into the cartels' hands.
    So, Mr. McAleenan, I will ask you the same question that I 
asked Secretary Nielsen last year. Are you satisfied with the 
current state of southbound inspections?
    Mr. McAleenan. No. I agree strongly with you that we can do 
more, and part of the nonintrusive inspection equipment that we 
are going to be purchasing with the fiscal year 2019 funding 
will go to outbound lanes. But to your point, we have been 
doing outbound alongside our Border Patrol agents and CBP 
officers jointly. We do not have agents available to do 
outbound right now. They are doing the inbound humanitarian 
mission.
    Senator Hassan. Right.
    Mr. McAleenan. So we also can improve our efforts in 
coordination with the Government of Mexico. So I think there is 
a lot to do in that area, and we can get stronger.
    Senator Hassan. OK. Given the numbers and the humanitarian 
crisis that we are seeing now, I am taking it that you would 
not say we have made real progress on this issue since last 
year, on southbound----
    Mr. McAleenan. The one area we are making progress is in 
acquiring the systems that will help us screen more vehicles 
going southbound, and more canine teams.
    Senator Hassan. OK.
    Mr. McAleenan. And in our overall hiring of CBP officers, 
that will strengthen our base on the Southwest Border. But, no, 
with our agents now redeployed on humanitarian missions, with a 
new government coming in and establishing new relationships on 
the investigative side, I think we can do a lot more this year.
    Senator Hassan. OK. And so one of the other things I heard 
last year was that it may take some work and planning with 
local authorities on both the north and south side of the 
border to configure things in a way that allows those 
inspections to take place without interfering with local 
traffic and the like. Is that something that you guys have been 
addressing?
    Mr. McAleenan. Absolutely. Every port of entry has plans 
for how to do outbound inspections given their unique flow of 
traffic, given the unique configuration of the footprints of 
ports of entry, which, again, have been there for a long time 
and were designed at a much lower volume of flow both north-and 
southbound. So, yes, we have plans locally for increased 
outbound efforts.
    Senator Hassan. Well, I would look forward to working with 
you on that, and I will take this as a commitment to continue 
to work on that, because I really think until we get to the 
southbound flow, we are not going to break up these business 
models.
    Mr. McAleenan. An important aspect of the mission, I agree.
    Senator Hassan. OK. Mr. McAleenan, back in March I 
requested from Secretary Nielsen the case files for the 
reported 245 child separations that had occurred since a 
Federal judge ruled that these separations must end. 
Understanding the need for privacy and confidentiality, I would 
have accepted redacted names and addresses.
    A week after my request, a representative from CBP followed 
up to say that you as Commissioner of CBP could brief me on 
this matter but not until 7 weeks after my initial request. We 
responded with dates and times that worked but heard nothing 
back from your office until just 2 days ago, 10 weeks after my 
request when your office replied to say that you could not 
provide specific information on these 245 cases.
    I will also note that just this week reports surfaced that, 
as we have talked about, 16-year-old Carlos Vasquez has died in 
Federal custody at the border, the fifth child to die, and just 
last night, as Senator Peters pointed out, we learned about a 
sixth child's death after apprehension by border agents.
    This is incredibly disturbing and raises more serious 
questions about the treatment of children at the border. I know 
you care about it, but we obviously have to be able to 
implement real plans here to prevent these kinds of tragedies 
from happening.
    Can you provide any update on the cases of these 245 
separated children for us or about what CBP is doing to provide 
more accountability for the treatment of children at the 
border?
    Mr. McAleenan. So, first of all, I will go back and look at 
your oversight request and make sure we are responding 
appropriately and timely.
    Senator Hassan. Thank you.
    Mr. McAleenan. Thank you for raising it. I was not aware 
that we had been delayed in that response.
    Second, I just want to emphasize that any separation that 
is occurring now is occurring for the benefit of the safety of 
the child. This is in compliance with the court order in Ms. L. 
It is in compliance with the Executive Order from the President 
from June 20 of last year. So we are seeing that, even though 
we have 1,500 to 2,500, some days over 3,000 families, 
separation is only occurring one to three times a day. So it is 
extraordinarily rare and under very controlled circumstances.
    Senator Hassan. I thank you for that answer, and because I 
am running out of time, I want to be respectful of the time 
here. But I want to say that if this is not all necessarily on 
you and your agents, but this Administration has given a 
variety of stories about family separation since they even 
officially began. So you can understand that from an oversight 
point of view, in order to protect children, we need this 
information and we need to engage with you to ensure what your 
intentions are, what you are saying to me now is actually what 
is happening.
    Thank you, Mr. Chair.
    Chairman Johnson. Senator Paul.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. Thank you for your testimony. I think it is 
important that we know who comes to our country, who is 
visiting on student visas, if we have intelligence that they 
are here with bad intention we do not let them in, if they are 
not going to school they are sent back home. But we have a 
problem that seems to be recurring with one of our 
universities. Campbellsville University has been around for 113 
years. I have been there many times. It is a great college. It 
is a real college with a great reputation in our State. They 
have had three students recently come in on student visas that 
either had their visas taken away or were turned back. I do not 
think it is because there was any kind of actionable 
intelligence or that the kids did anything wrong or that the 
university did anything wrong. But the Border Patrol agents are 
simply saying it is a fake university, which, one, is very 
insulting to our university and to our State, but I think it is 
not just the border agent problem. It must be some kind of 
central list. Wouldn't you think they have to type into a list 
for a student visa and say what universities are on that list? 
The university is on the list of approved students. The only 
anomaly may be that it is an online course. Some of the 
students were coming into other airports, so they are coming 
into Los Angeles and they do part of the course in Kentucky and 
part of it online. But it is approved by ICE; it is approved by 
the government. But the problem is your officers--either it is 
not typed into the system correctly or whatever, but then they 
are insulting these students, turning them back, and insulting 
the university also.
    We sent a letter to you 63 days ago, and I think there has 
been some response and I think some attempt to resolve this. 
But 10 days ago, another student was turned back.
    Look, I am all for safety and I am all for not letting 
people come in here who are problems. But it does not sound 
like there was an individual problem here. There is more a 
systemic problem that you just do not have your list right or 
your agents do not have access to the list.
    Do you know how it works? Does an agent type in a list to 
come up with a university when a student comes in from abroad?
    Mr. McAleenan. Thank you, Senator. I do know how the 
student visa program works. It is managed by ICE. You have to 
have, first of all, a certified program, certified university, 
and then the individual student visa holder has to be confirmed 
to be part of that certified program.
    Senator Paul. I think all that is true, and they are still 
coming up and insulting our university and saying it is fake, 
and we have no evidence and no one has presented any evidence 
that they are not on the appropriate list.
    Mr. McAleenan. Sure. I am not familiar with the individual 
case, but we will certainly look into it. I am glad you have 
gotten some response toward resolving it, but we will take a 
look.
    Senator Paul. We need more, and the sooner the better, 
because it is a big deal for someone to fly halfway around the 
world to go to school here and be, one, insulted, the 
university is insulted, and to then--we need some resolution. 
If you would try to help us with getting resolution, will you 
have somebody call us within a week or so and try to work 
through this so we do not have a recurrence?
    Mr. McAleenan. We will follow up.
    Senator Paul. OK. The other issue I have is one we had with 
the last nominee for ICE. We were not too fond of him because 
of one his statements. One of his statements was that a cell 
phone is just like a shipping container, and not only do we 
object to that, we object strenuously to that. We are insulted 
by the comment. Do you think a cell phone is the same as a 
shipping container?
    Mr. McAleenan. So all goods that cross the border are 
subject to examination, but actually we have a specific policy 
for cell phones. It is different. They have a different level 
of data that they can contain, and that is why we have 
restrictive approaches to whether we can inspect it and how we 
inspect it.
    Senator Paul. Alright. We want you to be even more 
restrictive. We want the law changed. So Senator Wyden and I 
actually have a bill to require a warrant for U.S. citizens 
coming back home, because we think there is a great danger that 
if you have brown skin, a different accent, or a funny last 
name that does not look so-called American that you are going 
to get--all of a sudden they are going to say, ``Give us your 
cell phone.'' And, if you have evidence someone is calling a 
terrorist, if you have someone that they are part of a 
terrorist cell, by all means stop them, keep them, do whatever 
it takes. But just random American citizens coming home being 
asked for their password to the cell phone we think is very 
intrusive without any kind of--other than, ``We just think they 
looked suspicious.'' That is not enough. And so we are still 
troubled by the reports we hear on this, and we are going to 
keep pushing the issue. But it is very important for us to 
convey to you that we do not think a cell phone is a shipping 
container. You do have the right to go through luggage and 
shipping containers at the border. You do not really have a 
right to look at my Google searches and to look at everything I 
have stored on my phone, pictures, etc., and download that to a 
computer.
    When you are taking phones and you are getting passwords, 
are you downloading content from the phone to a database?
    Mr. McAleenan. So there are a couple different types of 
searches: a basic search where you would just look at the 
surface content of the cell phone, and then a more in-depth 
search of a phone or any contents--it would require reasonable 
suspicion, supervisory approval, and several additional 
safeguards.
    Senator, I know your concerns are sincere and well informed 
on this issue. I do want to emphasize, though, that we have 
oversight over the selection for secondary and the selection 
for secondary that includes inspection of a cell phone device. 
And any indication that would be done on the basis of race, 
religion, or anything else would be unacceptable. And it is 
overseen not only by CBP's Office of Professional 
Responsibility but by our Civil Rights and Civil Liberties 
Office.
    Senator Paul. You can see how the danger occurs, though, 
because a lot of it is ambiguous when you go to what is 
suspicion. So you can see how there is a real danger and for 
people coming back to be targeted based on it, even if it is 
not spoken that there is a danger that there is a bias in the 
way this is happening. And so the regulations you have on the 
phone, on what you do to go to a phone search, are those 
printed and open and available to us?
    Mr. McAleenan. Yes, we publish the policy online. I 
personally worked on the update and the more stringent 
requirements in the policy.
    Senator Paul. OK. I know you deal from your perspective. 
From our perspective there are many of us who think there 
should be a legal requirement for a judicial search, that this 
is not the same as looking at the luggage. And so just at least 
realize that there are some of us that are very concerned about 
the invasiveness of this search. Thanks.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks. And thanks very much for visiting 
with us yesterday, Mr. Secretary, and sharing your thoughts and 
ideas with us.
    I am going to ask you to use most of my 7 minutes to just 
sketch for us an outline that includes push and pull factors, 
includes Alliance for Prosperity, includes in-country asylum, 
includes changes in the way we process people at the border, 
immigration judges and so forth. Just take my 7 minutes and 
just put together a thoughtful, compassionate, smart, cost-
effective plan. I think the smartest thing we could do would be 
actually do comprehensive immigration reform, and God willing, 
someday we will get back and do that. That is probably the 
ultimate answer. But just take the next 6\1/2\ minutes to do 
that for me, please.
    Mr. McAleenan. Thank you, Senator, for that opportunity, 
and I think at the start of the hearing, the Chairman's opening 
statement, some of our discussions on the Flores case and the 
increased arrival of families and children over the last 
several years, I think we talked a lot about the pull factors, 
and the direct response to the fact that families can no longer 
be held, together, through an appropriate and fair proceeding 
and have essentially a guarantee of release and indefinite stay 
in the United States. That is a tremendous challenge. It has 
been exploited by smugglers who are advertising that 
opportunity, and that is what is causing the significant surge 
that we see this year.
    Unaccompanied children as well, even if they do not have a 
valid asylum claim from Central America, are also not able to 
be repatriated under the Trafficking Victims Protection 
Reauthorization Act. Those are the two key factors we are 
facing.
    And then the third, on the pull factor side, is the asylum 
gap, the fact that the credible fear standard is a possibility 
of proving an asylum case. That means that 87 to 92 percent of 
those who have that initial credible fear screening are passing 
it, but they do not actually see a judge for an asylum process 
for 2 to 5 years later. And when they go through an asylum 
process, we are only seeing 10 to 15 percent granted asylum.
    So those are the three areas that are huge vulnerabilities 
in our legal framework that we have asked Congress to tighten 
down, and we sent language to the Hill multiple times. There is 
some good legislative work going on right now in the Judiciary 
Committee with Chairman Graham's bill, but we need to partner 
on that. That would address the pull factors quickly and 
immediately. The President highlighted Senator Graham's bill as 
an immediate approach to the crisis in his Rose Garden remarks 
on a broader approach to immigration reform last week.
    On the push factors, they are significant and challenging. 
I have been to Central America three times in the last year. I 
will be going on Monday to meet with my minister counterparts 
in Guatemala, Honduras, and El Salvador in Guatemala City. I 
will be going back to the Western Highlands in Guatemala, which 
is really the source of most of the migration that we are 
seeing from Guatemala. About 40 percent of the total arriving 
at the border right now is from a specific region of Guatemala. 
I am going to one department where over 3.5 percent of that 
population has come to the United States in 7 months, and that 
is because they are facing poverty and economic opportunity 
gaps. The average age in Guatemala is 19. The people entering 
the job market are almost 200,000 a year while they are only 
creating 40,000 jobs.
    So there is a huge economic driver and a huge opportunity 
gap. Senator Portman highlighted the wage differential as well. 
If you can make 15 to 20 times what you can make at home in a 
booming economy in the United States. and you have a guaranteed 
ability to stay indefinitely, that is a massive draw and 
incentive.
    The second thing is there has been drought in this region 
for the last 5 years. That has affected the subsistence farming 
in the Western Highlands and the rural areas of Guatemala and 
Honduras as well. This is their crop cycle: corn, beans, and 
potatoes every year. The beans are not producing. That is their 
source of protein. That is a big issue. It is one that United 
States Department of Agriculture (USDA) and the United States 
Agency for International Development (USAID) have tried to help 
with, preparing crops that are drought-resistant. But that has 
been a massive impact. And then the global coffee price has 
cratered. That affected the employment in Guatemala as well. So 
there are big economic drivers.
    On the security side, the situation is actually improving 
in all three countries. The murder rate has gone down 
significantly, 40 to 70 percent, depending on each country and 
in municipal areas. The strategy in El Salvador for a 
consolidated whole-of-government effort at the municipal level 
is working. They are reducing violence and creating additional 
economic opportunity. But there is so much more to be done. The 
governance issues, the corruption issues, definitely cause and 
produce push factors that are part of this crisis.
    So we need a strategy that effectively tackles both. We 
need help from Congress to address the pull factors. We need 
more security investments that we are making to increase our 
capacity on the U.S. border. We need to partner with Mexico to 
tackle the transnational criminal organizations (TCO) that are 
exploiting vulnerable migrants. And we need to engage the 
governments of Central America, working with accountable 
partners on targeted programs that make an impact on our 
national interest.
    So we have a lot to do, but I think we have a coherent 
strategy, we have a plan, but we need Congress to support to 
implement it, both on the resources and the authority side.
    Senator Carper. What role do Ambassadors play in those 
three countries?
    Mr. McAleenan. I think our professional diplomats, led by 
two great Ambassadors and Charge d'Affaires Heide Fulton in 
Honduras are leading staffs that are well informed about the 
situations in those three countries. There are professional 
diplomats in USAID that are really driving some of the program 
successes that we are seeing, especially in El Salvador. I had 
the benefit of going to see them at work and see how hard they 
are working in partnership. And I do think we have a great 
dedicated diplomatic corps that is trying to advocate for 
change and improvements in conditions in all three countries.
    Senator Carper. I would just say to my colleagues, there 
has not been a U.S. Ambassador in Honduras for over 2 years. 
That is shameful, and we have to be smarter than that. And the 
role that they play, the role that Jean Manes played, 
Ambassador to El Salvador following the election of a guy named 
Bukele, the new President-elect for El Salvador, and helping 
him prepare to assume office and put together his team, a 
hugely helpful, a hugely constructive role. In fact, we have 
been almost 2\1/2\ years without an ambassador in Honduras. It 
is just something that we ought to just raise our voices and 
say we can do better than this.
    Real quick, tell us two or three areas where we can help 
you in terms of filling vacancies around you where you have a 
lot of acting people in place.
    Mr. McAleenan. So we have several nominees in front of the 
Committee. I think getting an Inspector General for oversight 
is critical, and he has advanced through the Committee. Thank 
you for that.
    We have a FEMA nominee, and we are heading into hurricane 
season next week. I would very much appreciate if we could 
schedule a hearing and move a tremendous nominee, Jeff Byard, 
through the process. Our Chief Financial Officer (CFO), 
obviously another critical role. So there are some nominees 
that we have sent up to the Senate and more hopefully that we 
will be able to produce in short order. But, having the right 
leaders in the right positions is very important to maintaining 
our momentum.
    Senator Carper. Good. Thanks so much.
    Chairman Johnson. So now that I have a few more Senators, I 
do want to draw your attention again to the cup where we have 
put our chart on so hopefully people will not crumple it up and 
throw it away. But the point I wanted to make is just in the 
first 3 weeks of May, 65,000 additional people have been added 
to that bar. My guess is this bar will show close to 400,000 in 
the first 8 months compared to 120,000 in all of the year 2014. 
So 400,000 is probably where we will end up for the month of 
May. So this is a growing crisis, and we have to support the 
Secretary. We have to pass that emergency spending bill. 
Senator Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you, Mr. Chairman.
    I want to start by talking about the disaster, the 
tornadoes that touched down in my State last night causing very 
significant damage. We have lost, I am afraid, three lives in 
southwest Missouri, also causing very significant damage in the 
middle of the State. We are still assessing the extent of the 
damage, and I will be seeing it for myself very soon.
    I understand FEMA dispatched a search and rescue team. 
Thank you for that. I am wondering if you can speak to what 
more FEMA might be prepared to do to help.
    Mr. McAleenan. Yes, I reached out to our Acting 
Administrator Pete Gaynor this morning on these issues. FEMA is 
on top of it, and he noted the search and rescue team, very 
concerned, and please let me acknowledge the loss of life. FEMA 
will be there. We will respond in support of your State and 
local authorities to address any damage from the storm.
    Senator Hawley. Great. Thank you very much. I look forward 
to working with you on that.
    As you know, we are also in the midst of a major flood 
event in the State of Missouri, and Missourians are tough. 
There is nobody tougher. But we are going to need Federal 
assistance to help rebuild those communities, those farms, and 
those towns, and I look forward to working with you on that as 
well.
    Let me ask you about another major problem in my State, 
which is the epidemic of drugs flowing into the State. I 
noticed in your written testimony that the words ``illegal 
drugs'' appear just once, which I was a little bit surprised 
by, so let me give you a chance to elaborate here. The drugs 
coming across the Southern Border are making their way, I know, 
into cities across the country, but Missouri is very hard hit, 
and we have an epidemic of meth, our law enforcement agents 
will tell you. Most Missourians probably do not realize that 
the meth that is flooding into Missouri now is not produced in 
the State anymore. It comes across that Southern Border.
    Talk to us about the drug crisis that we are facing at the 
border and that is affecting my State and I suspect all of the 
States of those of us sitting here.
    Mr. McAleenan. Yes, the drug crisis is both acute and 
devastating. We had a colloquy with Senator Portman about both 
opioids and the increasing meth. If you talked with sheriffs 
and State and local police over the last 2 years west of the 
Mississippi, they would have been talking about meth, not the 
opioid or synthetic opioid crisis. Now you are seeing meth 
expand east of the Mississippi as well. This is devastating, 
and it is our responsibility at DHS to do better with this 
challenge.
    As you noted, 90-plus percent of both heroin and meth are 
coming from Mexico now. Mexican cartels have made it into a 
super-lab science, and we are working with the Mexican 
authorities to try to take out some of these labs in key areas 
that we have helped them identify. But we need to do more at 
that immediate border as well. The investment from fiscal year 
2019 in increased nonintrusive inspection technology are going 
to be a game changer for us. Right now, about 85 percent of our 
seizures come from X-rays of personally owned vehicles. We are 
only getting to 2 percent of those cars right now. With the 
investments we got last year, we are going to be able to get up 
to 40 percent, and that is going to completely change our 
dynamic in terms of risk-assessed targeted inspections.
    For commercial vehicles, we are at 17 percent. We are going 
to be able to take that up over 70 percent in a matter of 2\1/
2\ years. That is going to be a very different target for the 
smugglers to try to get through. We are also increasing our 
canine teams, which are the second highest referral rate for 
our drug seizures.
    I do want to emphasize, though, that between the ports, 
investments are also critical. The border barrier, the wall 
system, with lights, cameras, sensors on top of that----
    Senator Hawley. Tell us why that is so important?
    Mr. McAleenan. Because we are seeing increasingly smugglers 
using between ports methods to bring in hard narcotics. That 
was not a significant phenomenon 5 years ago. It is growing 
now, and it is a huge challenge. In Rio Grande Valley (RGV), 
where we have the epicenter of the humanitarian crisis that we 
are talking about, last month we made a seizure of 750 pounds 
of cocaine in one seizure. They felt confident enough to bring 
that many drugs across, and we had one Border Patrol agent who 
laid in the brush for a week straight because he was worried 
about that stretch of border. He knew that they were using 
families to divert resources, so he laid in that stretch of 
brush and caught that load. I called him and talked to him 
about how dedicated he was to sit there for a shift and a half, 
7 days in a row, before he finally got that load. We know what 
is happening. We know they are using families to divert our 
resources and bring drugs behind them, and the border wall 
changes that dynamic.
    Senator Hawley. What other resources do our agents need to 
combat this drug-smuggling epidemic?
    Mr. McAleenan. So we need better aviation surveillance. We 
have asked for surveillance sensors in the 2020 budget that 
will help our aviation platforms target crossings. We need the 
innovative towers that we are putting in place. We have 
received support from Congress 3 years in a row for innovative, 
cost-effective programs on emerging technologies that are going 
to expand our surveillance capability. We need to finish our 
fixed tower deployment. That surveillance technology and the 
ability of our agents to respond effectively in a mobile way is 
a huge factor in our success.
    Senator Hawley. Can I just ask you, how is the growing 
crisis, the asylum crisis and the illegal immigration crisis 
that we are seeing, that the Chairman has been talking about 
earlier today, how is that affecting your ability to combat the 
drug-smuggling crisis as well?
    Mr. McAleenan. So the first time I publicly referred to 
this as a ``border security and humanitarian crisis'' was last 
June when we had one-fourth of the traffic we have now. So the 
humanitarian crisis is drawing away our Border Patrol agents. 
Forty percent of their time now is spent on transportation, 
processing, care, hospital watch, medical, food preparation for 
migrants. They are not on the line where we need them.
    In parts of El Paso Sector, we are depleted 60 or 70 
percent from what we would like to be in our forward 
deployments on the line. That dynamic has to change. We need 
our agents back doing what the American people want them to do, 
protecting them on the border.
    Senator Hawley. Well, is it fair to say that this Congress' 
inability to deal with the immigration and asylum crisis is 
helping fuel the drug epidemic crisis?
    Mr. McAleenan. They are directly related.
    Senator Hawley. Let me ask you this: How frequently is 
Border Patrol apprehending members of transnational criminal 
gangs like MS-13?
    Mr. McAleenan. So last year we apprehended 17,000 people 
with criminal records. We are going to exceed that 
significantly this year. We had 808 gang members in 2018. We 
have more so far coming this year. So there is a population--it 
is not just families and children. They are the bulk of who is 
crossing now. They present unique challenges. But we are 
talking about 35 percent of that traffic are people trying to 
evade capture, and hidden within that 35 percent are criminals, 
gang members, and drug smugglers. So we have to address this 
comprehensively.
    Senator Hawley. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Scott.

               OPENING STATEMENT OF SENATOR SCOTT

    Senator Scott. First of all, thank you. Thanks for what you 
do.
    I was just down in Panama and met with some DHS 
representatives to talk about narcotrafficking and the violence 
that is part of it, and I met with the Drug Enforcement Agency 
(DEA), DOD, and they were talking about if they had some 
additional resources, the countries just north of there were a 
lot of the narcotrafficking is coming out of, they could do a 
lot, and they thought that would have a positive impact on 
dealing with what is happening on our border.
    What do you need and what can we do, what can Congress do 
to be more helpful in that arena?
    Mr. McAleenan. Thank you, Senator, and thanks for visiting 
with our people. I think one of DHS' strengths is our ability 
to support and work with foreign partners to make an impact on 
our security as far away from our border as possible and really 
building their capacity, sharing information, and trying to 
make an impact together. I think Panama is one of our best 
examples of that. Both the ICE and Homeland Security 
Investigations (HSI) presence as well as the CBP, the U.S. 
Coast Guard, partnerships with Panama, I think are really a 
good example for the entire hemisphere, and we have made a lot 
of progress in the last 5 to 7 years specifically with the 
Government of Panama.
    You talk about the trafficking challenges in that region. 
The Andes are the highest cocaine-producing rate. We still see 
lots of cocaine coming to our border. Actually, the numbers 
have been increasing the last 3 years. Addressing that at the 
source with U.S. Coast Guard on the water, with maritime 
patrol, aircraft in the air, is really our best defense. And 
those interdictions are often driven by good intelligence 
sharing, by investigative efforts with HSI, DEA, and our 
intelligence community (IC) partners working with the Colombian 
Government, Panamanian Government, and others to try to get 
those interdictions before they get out on the open water and 
land somewhere in Central America or Mexico and end up trying 
to come across our land border.
    So those partnerships forward-deployed are critical. The 
investments in the Coast Guard fleet I would highlight are 
absolutely essential to helping us sustain a presence on the 
water there in the source and transit zones. And then our P-3 
fleet for CBP, our unmanned aircraft systems (UAS) fleet, the 
Guardians that are the maritime patrol version of our predator 
drones--those are called ``MQ-9s''--those are critical assets, 
and we appreciate Congress' continued support for that.
    Senator Scott. They also talked about the fact that the--I 
guess it must have been from--they are coming further south, 
from South America. They are getting out further into the 
Pacific and then coming in, and there was possibly a need for 
additional--I do not know if it is DOD or Coast Guard assets. 
Can you talk about that?
    Mr. McAleenan. Yes, so we are seeing routes going around 
the Galapagos and then coming north. From Baja California, we 
are seeing routes going out west of Catalina and coming up to 
the middle of California. So open ocean, maritime patrol 
capability, whether it is emergency technologies with micro 
satellites, whether it is unmanned maritime drones, we need to 
look at opportunities to innovate in this space because we are 
seeing incredible efforts by cartels to avoid our current 
patrol efforts. So not only investments in what we are already 
doing conventionally, but we need to look out over the horizon 
and see what else kind of--what technologies we need to get 
better at this challenge. I agree with both.
    Senator Scott. The Comptroller General was just in, I guess 
this week, talking about they reviewed how agencies contract, 
and they were talking about FEMA to a certain extent. It seems 
like I had every plague there was when I was Governor of 
Florida. I had health and hurricanes and everything. What 
opportunities do you have, whether it is through FEMA or 
through anything else DHS is doing that you can save money, 
that you could allocate more dollars to issues we are dealing 
with on the border?
    Mr. McAleenan. So that is actually a good question. At CBP, 
it was an area we worked very diligently on. Our procurement 
and acquisition staff, we reorganized them 2 years ago, and 
they have been very effective at getting good value for 
government, lowering our protest rate, ensuring we are using 
small and disadvantaged businesses. I think that is actually 
the story DHS-wide. We have a tremendous Chief Procurement 
Officer in Soraya Correa who oversees this effort. I looked at 
the FEMA numbers. We are looking at thousands of contracts that 
FEMA has issued in response to storms in your State and others 
that have been devastating over the past several years, and 
only four or five of them have had issues where they needed to 
be canceled.
    I think the record is actually pretty good. I know there 
has been some high-profile concerns, but that is something I 
will look at as Acting Secretary and make sure we are getting 
best value, saving money for the American taxpayer, and 
applying it to our mission priorities.
    Senator Scott. From my standpoint, first off, FEMA has been 
a great partner. They really did a great job in everything you 
could imagine. They really were a really good partner. But I 
think there is a lot of money to be saved with, in one contract 
in particular, how you they do debris, which is not done--I 
think FEMA pays for it, but it is done through the Corps at the 
prices that the Corps contracted for the same company was 
multiples of what that same company would do business in 
Florida for. It was not a little bit. It went from $7 to $8 a 
cubic yard to $72. So, I mean, it was a lot of money. So 
anything that we can do that can be helpful to you to save 
money there, that you might have money allocated to things that 
are a bigger problem, I would like to work with you on.
    Mr. McAleenan. We will commit to that.
    Senator Scott. Thank you.
    Mr. McAleenan. Thank you, Senator.
    Chairman Johnson. Senator Romney.

              OPENING STATEMENT OF SENATOR ROMNEY

    Senator Romney. Thank you. Very much appreciate your 
testimony today and this opportunity to talk about your budget 
as well as policies relating to our border.
    Just a comment at the outset, which is it is hard for me to 
understand why border security has become such a partisan 
issue, and I think that there are people who have politicized 
it, much to the peril of those who are doing so. I do 
understand that there are political issues associated with how 
we have to deal with our Deferred Action for Childhood Arrivals 
(DACA) individuals, how we have to deal with the 11 or 12 
million or so people who have come here illegally in the past 
and have been here for some period of time and raised their 
families here. People are concerned about whether we are going 
to have a system of legal immigration based upon joining 
families back together, family reunification versus a merit-
based system. These all have, I think, understandable political 
back-and-forth. But securing the border and keeping people from 
flooding over the border illegally is something which I would 
think one could take out of the realm of politics. And I think 
those that are making this a political issue perhaps--and I 
just think it is a real loser, by the way, from a political 
standpoint, in part because without a completed wall, without 
the technology that we can avail ourselves of, we are going to 
see more and more drugs come into the country with people dying 
as a result of those drugs coming in. We are going to have a 
flood of children coming that get separated from parents and go 
off into foster settings in many cases--unaccompanied children, 
that is. It is just a series of horrible potential outcomes or 
horrible reality that is occurring. I hope we are able to deal 
with the loopholes and gaps in our legal system that has caused 
to a great degree this extraordinary crisis to occur.
    But with that said, let me turn to a question I would just 
like to ask you. You have spoken about the importance of the 
wall, using better technology to interdict, our Coast Guard as 
well, in the open seas, closing the loopholes. And you 
mentioned that a number of people in Central America and 
Mexico, for that matter, look across the border and say, all 
right, I can get $15 an hour up there, and I am getting $1 an 
hour down here, and they are going to find a way--one way or 
the other, they are going to find a way to get here because of 
that enormous economic advantage in doing so.
    Some of us feel that we really should mandate a requirement 
that businesses use E-Verify, and that if a business does not 
use E-Verify and if they are found to have hired someone who is 
not here legally, the business should be heavily sanctioned and 
fined, penalties, whatever, for not having used the E-Verify 
system.
    Do you believe that mandating E-Verify use with penalties 
would help and reduce the magnet, if you will, that brings 
people who just want to come here for economic opportunity?
    Mr. McAleenan. Thank you, Senator. Just specifically on 
your E-Verify question, we support comprehensive use of E-
Verify. Every employer should avail themselves of this 
opportunity. We just finished a development project to make it 
available for any employer, all 50 States, who wants to sign 
on. It is a robust IT system, and it provides quick responses 
on people's lawful status in the United States. That employment 
magnet that you referenced, Senator, the booming U.S. economy, 
I should have included that in my response to Senator Carper as 
one of the huge pull factors. It is the opportunity we have 
right now in the United States, and 
E-Verify is a tool to help make sure that that is done in a 
lawful manner.
    If I could add just one other point to your opening, I did 
close my oral statement with a request and an ask and an 
acknowledgment of this Committee's ability to work in a 
bipartisan way, in a problem-solving way, and how welcome that 
is. I started after 9/11. Having border security be a 
politicized issue is new, and I do not think it is acceptable 
to the American people, so I applaud your call for taking that 
out of the dynamic and let us look at the problem and let us 
grapple with it and try to come up with shared solutions, so 
thank you.
    Senator Romney. Thank you. And now to a couple of topics 
that relate to the numbers, as this is a budget discussion as 
well or primarily. An enormous increase in the budget request 
for FEMA, looking at the President's request in 2019 and 2020, 
and then comparing that with what was enacted in 2018, it is up 
some 40-plus percent. Why is there such a substantial increase 
there?
    Mr. McAleenan. I think the bulk of that is to get the 
Disaster Recovery Fund to the level it needs to be to both 
address the past storms in 2017 and 2018 but have it prepared 
for the future, and it is a scalable drawdown. It does not have 
to stay obligated if we do not need to use it.
    Senator Romney. In a similar vein, there is an enormous 
increase in ICE, from $7.5 million enacted in 2018 to $9.3 
million requested in 2020. Why the substantial increase there?
    Mr. McAleenan. Sure. I think there are two main issues. 
One, we need a lot more professionals at ICE. We have asked for 
1,660 additional Homeland Security Investigation agents, ICE 
Enforcement Removal Officers, and support personnel and 
attorneys. Right now, our Enforcement of Removal Operations 
(ERO) are sized for 34,000 people in custody, but they are 
holding 51,000. That means it takes longer to get each case 
processed, to get removals occurring, and they do not have the 
strength to do all of their missions at the same time. They are 
also fully involved in the border crisis. We have hundreds of 
agents surged to the border dealing with child-smuggling 
issues. They have come up in the first 3 weeks of that 
operation with 160 prosecutions for adults who are smuggling 
children across and posing as family units. We need more 
capability to do that work. So that is first, is the personnel.
    And, second, on the ICE side, it is just investing in our 
systems, our attorneys to get through the court proceedings and 
a broad variety of requirements we have and really just fund 
the bed space, the increased detention requirements from an 
increased flow across the border.
    Senator Romney. You indicated also, in response to another 
question from one of my colleagues, the important role that the 
Coast Guard is playing in interdicting drug trafficking that is 
bringing ships in some cases north of Catalina Island, and yet 
the Coast Guard budget request is down pretty substantially 
from what was spent in 2018. Why the reduction in spending or 
funding for the Coast Guard?
    Mr. McAleenan. I think the main difference there--and I 
have talked to Commandant Schultz about whether he is getting 
the resources he needs to keep his capital investments moving 
forward. I think the big difference is a one-time initial 
startup cost for buying the ice breaker for the Arctic. That is 
not required in the 2020 budget. We are going to sustain that 
program, but we do not need that first investment. I think that 
is the big difference in the 2019 and 2020 budgets.
    Senator Romney. Thank you. My time is up.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Mr. Chairman, thank you so much.
    We have a lot to cover, as you have seen, and we have gone 
through quite a bit. Let me go back to a couple of issues that 
we have already started to address a little bit. One is on the 
drug interdiction issues, and what I want to do is be able to 
walk through the drug interdiction and what we are seeing 
coming from Mexico versus coming from China. One is obviously 
coming by mail more, and sometimes the Chinese are sending it 
to Mexico, then Mexico is actually bringing it north from 
there. So help us understand what you see is the difference 
between the amount of drugs coming into the United States from 
Mexico and the amount of drugs coming in through China.
    Mr. McAleenan. Thank you, Senator. There are two main 
vectors, frankly, for synthetics, especially synthetic opioids, 
fentanyl, carfentanil, and analogs. So in this massive flood of 
e-commerce, this tremendous growth of mail shipments coming 
from China, express consignment coming from China, we are 
seeing hard narcotics, vials of fentanyl, 25 grams that we are 
trying to detect in this flood of packages, and it is very 
potent. The drug seizures we are making in the mail environment 
are 90 percent pure on average, so a very small amount could 
actually be pressed into pills at a very high level in terms of 
making profit and producing doses in the United States.
    On the Mexican side, we are seeing prepackaged fentanyl 
doses often in pill presses that it is more at the 10-percent 
purity level. So it is a much lower level, but it is produced 
ready to use as opposed to needing further processing in the 
United States. I think the bulk of our volume seizures are 
still on the Southwest Border for all drugs, but including our 
synthetic opioids. We do see precursors coming from China and 
other countries being synthesized by cartels in Mexico and then 
smuggled across our border in increasing amounts as well. They 
tend to seek to seize the market share on any new opportunity 
to smuggle drugs into the United States. So that is what we 
have seen with fentanyl as well.
    Senator Lankford. So what is the cooperation like right now 
with the Mexican Government since the bulk of the drugs coming 
into the United States are coming across our Southwest Border?
    Mr. McAleenan. So we have established connections with the 
new leaders of our counterpart agencies, from Attorney General 
of Mexico (PGR) that does the investigations to the Federal 
police, which is transitioning into a national guard status. 
Right now they just had a very overwhelming vote in support of 
transition to a national guard. That is going to be a 5-year 
process. We know what it is like to merge and change as a 
department. We did that in 2003 extensively. That is a 
distraction, so that is something that we want to work with our 
partners to make sure we remain focused on the threats. We have 
good relationships with their head of security, Secretary 
Durazo, and we are going to stay focused on this issue and try 
to maintain our efforts.
    We have seen targeted takeouts of meth labs based on 
intelligence and information sharing from U.S. law enforcement. 
So I think that is a positive sign.
    Senator Lankford. That is a positive sign. Talk to me about 
the effectiveness or non-effectiveness of new fencing. You have 
replaced some of the fencing in San Diego and some of that 
area.
    Mr. McAleenan. Right.
    Senator Lankford. You have had enough time to be able to 
evaluate it. How is that working compared to old fencing?
    Mr. McAleenan. Yes, a complete difference, and I am glad 
you asked that question because there has been a lot of 
reporting that suggests this is not a new capability; this is 
just replacement; this is not helpful; this was not important 
border wall. It could not be further from the truth. Those were 
our top requirements. We had this dilapidated wall. This was 
the first wall built because it was needed the most in San 
Diego and in El Centro Sector, for instance. Now having a 30-
foot wall in El Centro Sector where there is a mall within 40 
yards of the border has completely changed that dynamic. The 
traffic has dropped off the table in that area, and we are able 
to deploy and use our agents more efficiently in other parts of 
the sector.
    Senator Lankford. So do you have a good idea of side by 
side what the movement of individuals or drugs used to be 
through that same area and what it is now with the new fencing?
    Mr. McAleenan. We do. I can get you that data. The 
percentage drop has been dramatic.
    Senator Lankford. That would be great. We would love to be 
able to see that, because obviously there has been a lot of 
pushback to say this is just replacement so it makes no 
difference. The numbers that I have seen on a preliminary basis 
show a pretty significant difference between that new fencing 
and between the older fencing that was not very effective at 
all.
    Let me shift gears a little bit. My State has been like 
several States. We have had a tremendous amount of water come 
on us. The flooding in my State has been pretty dramatic and 
continues to increase, and we have storms predicted in the next 
4 days in a row again. So this is an area that I am tracking 
very closely, working with the Corps of Engineers and with 
others that are there. FEMA has been on the ground. We 
appreciate FEMA's engagement there, and we will continue to be 
able to work with you on that.
    What do you need at this point that you do not have already 
for disaster relief, whether that be in my State of Oklahoma, 
whether it be in Missouri, whether it was a tornado last night 
in Jefferson City, whether that be in Florida, Puerto Rico, or 
in California?
    Mr. McAleenan. I think we have the resources and the 
support we need to support Oklahoma in this recovery. I talked 
to the Governor 2 weeks ago about the flooding and the 
potential for increased flooding as the rains continue and the 
river stays very high. We are very worried about it, and what I 
heard was the partnership between the State and locals and FEMA 
has been tremendous on this, that they are getting what they 
need at the State level. But I absolutely want to continue the 
communication, would love to hear from your office if there are 
opportunities to improve that.
    Senator Lankford. Thank you. We will continue to walk 
through that. FEMA's cooperation has been excellent, and we 
appreciate that continued engagement there.
    I need to ask you just a couple other quick things. One is 
on the Coast Guard process. You and I have talked briefly 
before that, as far as interdiction on the water, the Coast 
Guard process for interdictions in Customs and Border Patrol 
have two different structures to do interdiction. The Coast 
Guard process is much longer than Customs and Border Patrol, 
and I have always wondered within DHS, while we have two 
entities, both on the water, one has one process, one has 
another, and the Coast Guard process is a much longer process. 
I would like for you just to be able to take a look again and 
to be able to help our Coast Guard folks do a faster 
interdiction as the Customs and Border Patrol does currently as 
well.
    There is also some non-lethal resources that Customs and 
Border Patrol have when they are on the water that the Coast 
Guard does not have access to, and it would be helpful to be 
able to help both those entities on the water to be able to get 
that level of engagement in interdiction faster.
    Let me shift a little bit to cybersecurity. What DHS did in 
the 2018 election was pretty remarkable and your engagement and 
lean-in. A lot of threats, a lot of lessons learned from 2016, 
very different DHS engagement in 2018. I know you are staying 
engaged, but I need to ask you about that. How is the 
engagement for election security? And knowing that every 
Federal agency looks to you to be able to help them with 
cybersecurity for that entity, how is that going as far as 
resource-wise?
    Mr. McAleenan. Yes, so this is something I have been 
working on multiple times a week in my 6 weeks as Acting, but 
it is also an area where I have high confidence in Chris Krebs 
and the leadership of our CISA team. I think they have a great 
strategy to capitalize on the successes and momentum from 2018 
for the 2020 election. ``Protect 2020'' we are calling it. They 
want to get to all 8,800 jurisdictions in the country, not just 
all 50 States but all the jurisdictions that are overseeing 
elections, and make sure that they have the right systems in 
place that, if they want scanning or penetration testing, we 
can do that in advance and help them prepare. And really, I 
think the relationships and the communication is robust. We 
have built a lot of trust from 2016 to 2018 in our partnerships 
with State and locals. So I feel very good about the election 
security strategy.
    In terms of the interagency on the Federal network side, we 
do have good buy-in on our protections at the edge of the 
gateway, the EINSTEIN system and others. We do need to continue 
to work on that. Talking with the CISA team, their top three 
priorities are getting better at what they already do--Federal 
networks, election security, and soft targets; and then, of 
course, working supply chain issues where we see components 
being brought into the supply chains that could have 
vulnerabilities; and obviously industrial control systems. That 
is a huge challenge for cyber. It could have the biggest 
impact, everything from power to pipelines. So we are going to 
stay on top of it across those areas.
    Senator Lankford. Please do. Kevin, thanks for all your 
work on this.
    Mr. McAleenan. Thank you.
    Senator Portman [presiding.] Senator Rosen.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you. I want to thank you for bringing 
this important hearing here today, and I want to thank you for 
your service for so many years. It is really important, and 
your knowledge is great, and your compassion as well.
    I want to ask a couple of questions on family separation. A 
couple weeks ago, my colleague Congressman Carbajal and I sent 
a letter about misleading information we received last year 
when we visited the border. I have not yet received a response 
from your Department, but maybe you could provide me with some 
answers.
    Recent news reports indicate that DHS and HHS officials 
exchanged emails on June 23, 2018, acknowledging that the 
Departments did not have the necessary information to reunite 
migrant children with their families. In those email exchanges, 
DHS and HHS admitted, and I am going to quote here, ``In short, 
no, we do not have any linkages from parents to children. We 
have a list of parent alien numbers, but no way to link them to 
children.''
    On that same day, DHS issued a fact sheet claiming the 
Department knew the location of all the children in custody, 
that the Department had a process in place for the families to 
know the location for the children, and had a central database 
you could access and update.
    So just 2 days after that, Congressman Carbajal and I on 
June 25 traveled to the border to tour Tornillo, the 
unaccompanied minor facility. We were falsely told by 
leadership in those DHS and HHS facilities that the Departments 
had the necessary information to reunite the families.
    So my question I am hoping to ask you, Acting Secretary, 
taking a step back, how could you or how would you explain the 
discrepancy between the private emails exchanged between the 
government officials and the fact sheet published to the public 
the same day?
    Mr. McAleenan. Thank you for the question, Senator. I will 
do my best to explain it here and then make sure that we have 
an appropriate and robust response to your inquiry.
    So there are five different components involved primarily 
in dealing with immigration, three agencies within DHS, Health 
and Human Services Office of Refugee Resettlement (ORR), and 
the Department of Justice Executive Office for Immigration 
Review 
(DOJ EOIR). All five manage different IT systems. Let us just 
start with that. That is a challenge.
    On April 19, 2018, CBP, at the request of HHS, implemented 
an adjustment to its system to be able to capture parent-child 
relationships more explicitly in our data at the border.
    Now, that is a CBP system. It is not necessarily available 
directly to all HHS personnel as of June 2018. So when you are 
seeing an email like that--and I would want--I am giving you a 
broad answer.
    Senator Rosen. Right.
    Mr. McAleenan. I am not answering what the individuals who 
are sending that email are thinking or talking to specifically, 
but my interpretation of that is that having to go to a list of 
parent alien numbers means that they have to go to a different 
system. They cannot automatically see the linkages between the 
parent and child in the two different systems.
    Senator Rosen. You think it was a lack of communication 
interagency?
    Mr. McAleenan. A lack of system integration interagency. I 
think the communication was very good, and I want to comment on 
the reunification in a second. But, first, we are going to fix 
this. It is one of my priorities as Acting Secretary to have a 
unified immigration portal that allows that data to connect and 
be integrated across agencies. That is doable. We did it for 47 
departments and agencies for trade data when I was the Deputy 
Commissioner of CBP in the automated commercial environment 
called the ``single window.'' We can improve this process and 
certainly help ensure relationships are captured between people 
arriving at the border. So that is a priority.
    The reason I know, that I can say with confidence, that the 
data was captured and the intent of what was said publicly 
about our systems was borne out, is the reunifications actually 
happened pretty rapidly, and the reunifications were broadly 
successful by HHS working with ICE and CBP data.
    Senator Rosen. So let me follow up on that. Of the children 
that are still separated from their families--and we know there 
are still quite a few--in your estimation how many cases still 
lack the information necessary for reunification? And could you 
provide that information to us?
    Mr. McAleenan. So that is being provided by Health and 
Human Services in, I think, biweekly filings to the Ms. L 
court, the exact status of that, and I would refer you for an 
official answer to that data and to HHS. My understanding is 
that every single child has an identified parent relationship 
at this point.
    Senator Rosen. OK. We will refer out to that.
    I have another couple things. In my estimation, of course, 
your Department has a lot of work to do to regain the public 
trust, including mine, and so as you lead the Department 
forward, will you personally commit to all of us to truthfully 
respond to the Committee that your Department will not mislead 
us again in the way we were misled last year when I visited the 
border, no matter what the severity of issues are at hand?
    Mr. McAleenan. So law enforcement depends on public trust. 
That is a fundamental requirement to carry out our mission and 
carry out our jobs. I will ensure that, as long as I am Acting, 
we are going to do our level best to explain what is happening 
to Congress and to the American people on all aspects of our 
mission.
    Senator Rosen. Thank you. I have one last question quickly 
on family separation, and the training that you are providing 
for the DHS officers to determine or not whether families are 
falling into the criteria of needing to be separated, what you 
are going to do going forward. You said you have a lack of bed 
space, lack of detention space. What are your plans going 
forward to train your officers to take care with these families 
when they are going through this?
    Mr. McAleenan. Thank you for the question. So a case where 
a child and a parent are separated now is extraordinarily rare. 
It is done for the safety of the child, if there is a serious 
criminal violation, an indication that the parent presents a 
risk to that child, if there is a communicable disease issue 
for either the parent or the child or they need to go to 
emergency care. It is happening one to three times a day out of 
up to 3,000 families arriving. I just want to be very clear it 
is a very rare situation, and it has defined criteria that we 
have, by policy, mandated for our personnel in the field in 
accordance with the Ms. L court order and the President's 
Executive Order from June 20 of last year. So it is 
extraordinarily rare.
    In terms of the process for doing that, I think there is an 
opportunity with our Civil Rights and Civil Liberties Office to 
look across our Department and see if we can ensure that we are 
doing it consistently for CBP or ICE, for instance, and that we 
are taking all steps to consider the care of the child, the 
mental concerns a child might have in that scenario, and 
explain it effectively. I think there is an opportunity there I 
would like to work on.
    Senator Rosen. Thank you.
    Senator Portman. Senator Sinema.

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Thank you, Mr. Chairman.
    Our Nation faces a crisis along the Southern Border, and I 
am working with local leaders in Arizona, my colleagues in 
Congress, and the Administration to stop the flow of migrants 
to the Southern Border and ensure the fair and humane treatment 
of migrants who do come. This situation on the ground with our 
communities, NGO's, and our border workforce is not 
sustainable, so we must work together to find bipartisan and 
common-sense solutions.
    Acting Secretary, I am glad you are here today. I look 
forward to our discussion.
    The lack of transportation resources to manage the flow of 
migrants is a serious problem in Arizona. We need help 
transporting migrants between interception, detention 
facilities, and ICE and getting migrants to NGO's to facilitate 
further transportation.
    Could you review DHS' capability to provide additional 
transportation resources in Arizona, including resources from 
outside CBP or ICE, and get back to me on what the 
possibilities are?
    Mr. McAleenan. I can do that.
    Senator Sinema. Great. This is going well, Chairman.
    When searching for solutions to a crisis, it is always 
important to think outside the box, and I hope that you are 
encouraging your organization to tackle the challenges with the 
migrant crisis in this manner.
    I think the transportation issue calls for some outside-
the-box thinking. It is in DHS' best interest to work with the 
NGO groups on how best to manage migrant transportation after 
they leave DHS custody. But I have heard from some constituents 
about ideas such as working with sponsors to fund charter bus 
routes to ease the pressure on crowded Greyhound routes. Such 
ideas have merit, but will probably need DHS assistance and 
cooperation to be effective.
    Could you also take a creative look at what other support 
DHS could provide to these NGO's on the transportation front 
and work with us on the ground in Arizona on those 
possibilities?
    Mr. McAleenan. Yes, we will do that, Senator. I think 
innovation and partnership are going to be critical as we are 
managing this crisis. They have been to date with State and 
local authorities in Arizona and elsewhere.
    I will just highlight one quick example of that innovation 
and creativity. Our Acting Commissioner John Sanders at CBP has 
been instrumental in bringing together faith-based 
organizations and NGO's with resources away from the border 
that want to or are able to help the NGO's at the border that 
are doing so much work in your State, in El Paso, in South 
Texas with Sister Norma Pimentel's organization, and really 
that has brought in lots of additional resources and funding 
that is supporting the border entities. I think we can do the 
same kind of thing on transportation, not only engaging our 
Greyhound partners to increase routes, but also look at other 
creative solutions. In addition to applying the funding we are 
getting from Congress, we are buying buses for CBP, we are 
borrowing commercial driver's license (CDL) drivers from the 
Department of Defense, and we have asked for more 
transportation funding in the supplemental.
    Senator Sinema. Great. I believe we need to treat all 
migrants who come to our country fairly and humanely. We also 
need to determine who is eligible for asylum and who comes to 
our country as an economic migrant. And the key part of that 
effort, of course, is the determination of credible fear. Do 
you feel that the Department has sufficient authority to allow 
immigration and asylum officers to ask enough questions of 
migrants to get at the truth of any credible fear claims?
    Mr. McAleenan. I think there are two elements to that. 
Resources is part of it, being able to take the time at the 
front end to assess the situation. And we are seeing that, 
unfortunately, with family units right now the volume is so 
high, our Border Patrol agents are not able to spend adequate 
time with each family to do their interviews to assess the 
family relationship or if there are any concerns of smuggling 
or trafficking. I know that because we have deployed HSI agents 
from ICE to both El Paso and RGV over the last 3 weeks. Out of 
516 interviews, they found 160 cases of fraud. Granted, these 
were targeted cases based on risk, based on visuals and prior 
interviews by Border Patrol. But that is an incredibly high 
percentage, and they are prosecuting the adults involved. But I 
am very worried that resource-wise we do not have enough, to 
your point, to detect that fraud and protect the safety of 
children that could be trafficked or smuggled by adults right 
now given the flood, the crush.
    The other aspect of credible fear, though, is the standard. 
There is clearly too big a gap between the front-end bar on 
credible fear, a possibility of proving an asylum case, and the 
ultimate determination by a judge. To have 85 to 90 percent 
pass that first bar but only 10 to 15 percent pass the asylum 
bar, with a 2 to 5-year gap between those two findings, that is 
obviously a gap in the framework that is allowing and inciting 
additional traffic to our border. So I think we need to address 
not only the resources side but the standard.
    Senator Sinema. What would you suggest that Congress do to 
help close that gap between the initial interview and the 
determination in front of a judge?
    Mr. McAleenan. We have provided language to the Senate 
Judiciary Committee that would apply a different standard on 
the front end of the credible fear that we think would still 
allow valid asylum cases to go forward, but reduce that huge 
gap between the credible fear findings and the asylum findings.
    Senator Sinema. Do you believe that you have the current 
authority to expand the questions asked at the beginning when 
folks are intercepted to create a, for lack of a better word, 
stronger record or longer record to help prepare for 
litigation? Is that something you have the current authority to 
do, or do you need Congress' action to ask more questions?
    Mr. McAleenan. We do have the authority, and we are 
actually implementing a more standardized approach to those 
initial questions. My concern is the resources right now and 
the ability for agents to spend the time they need to do that 
questioning effectively.
    Senator Sinema. So if you had sufficient resources and 
person-power, you could ask more questions at the front end 
that would help better prepare a case for presentation in front 
of a judge to either make the claim or to show that there is 
not evidence for adequate asylum status?
    Mr. McAleenan. Right, or presentation to an asylum officer 
as well.
    Senator Sinema. Great. CBP has indicated that it has 
reassigned over 700 officers from ports of entry and airports 
around the Nation, including some from the Tucson area in 
Arizona. We also know that there is an effort to transfer TSA 
officers from airports to assist the Border Patrol. I have some 
concerns about these decisions and their impact on security. 
Could you tell me a little bit more about where officers were 
reassigned from and to so we can better understand the strategy 
that you are using to move officers?
    Mr. McAleenan. Sure. I was Commissioner at CBP when we 
started the deployment of CBP officers to support our Border 
Patrol agents, and it was simply to increase our ability to 
safely care for families and children in our custody, and that 
was the more immediate need than addressing wait times of 
commercial traffic, for instance, which is critical to our 
commerce, as you know well. The Nogales-Mariposa port of entry 
is one of the most important arteries for trade with Mexico 
across the whole border. But we had a more important and acute 
need to take care of children. So that is how we made that 
determination.
    We have now balanced the sourcing of our CBP officers to 
include Northern Border locations, airports and seaports from 
around the country, and not just our Southern Border field 
offices. So that is the strategy we are applying there, and 
certainly we are eager to get those officers back doing their 
primary mission if we can help mitigate this crisis.
    In terms of TSA or other components of DHS that we have 
asked to surge volunteers to help at the border, this is what 
we do in a crisis, what we do in response to a natural 
disaster, for instance. Very clearly, we are not going to allow 
an increase of risk in our aviation security system, not going 
to allow that. We do not even have any transportation security 
officers (TSOs) deployed at this time as volunteers. We have 
our Federal air marshals who are part of Visible Intermodal 
Prevention and Response (VIPR) teams who are mobile to begin 
with that are helping on the border, and we are taking office 
management staff and other capabilities as volunteers. We are 
looking for attorneys, we are looking for CDL drivers, but not 
TSOs yet. TSOs might be required in the future, but, again, we 
had 2,000 people deployed as volunteers for Hurricane Harvey. 
We only have 250 or so right now for this crisis.
    So it is going to be managed carefully. We are not going to 
increase risk in other mission areas. But we might increase 
wait times here or there, and we have had that effect at the 
ports of entry on the border, and that is a concern.
    Senator Sinema. Thank you, Mr. Secretary.
    Thank you, Mr. Chair.
    Senator Portman. Thank you, Senator Sinema.
    So, Mr. McAleenan, you have done a terrific job, in my 
view, of answering questions and showing your vast amount of 
experience in this area, and we need you right now, and so we 
thank you for being here. We understand you are willing to stay 
until 11:10. We have had the first round for everybody. We are 
going to have a second round. It will be a lightning round. We 
are going to try 4 minutes here, and I appreciate the fact that 
my colleague Senator Peters has allowed Senator Lankford and me 
to go, and also, Senator Hassan, thank you, because we have to 
leave just before 11. And so if you are willing to stay, we 
will get to everybody's second round. Thank you, Senator 
Lankford.
    Senator Lankford. Kevin, thanks again for the work. I need 
to also thank you for the new advisory committee that you put 
in place for houses of worship. After the attacks in 
Pittsburgh, after the attacks in Texas, after the attacks that 
we have seen in multiple places, that is a very helpful thing, 
so thanks for engaging us. Anything in particular we need to 
know about that that we can help and assist in what your work 
is?
    Mr. McAleenan. So we are very concerned about the increased 
attacks on houses of worship of all faiths, both here in the 
United States and globally. The recommendation, frankly, of the 
Committee on Homeland Security, Chairman Thompson and Ranking 
Member Rogers, I looked at it, talked with our team, and we 
have asked the Homeland Security Advisory Council who has 
provided just outstanding advice. This is a bipartisan group of 
experts, former leaders, State and local leaders, and they have 
given us great advice across all kinds of missions.
    Senator Lankford. Right.
    Mr. McAleenan. And I think asking them to take on this 
challenge and look at how we engage faith-based organizations, 
houses of worship on their security, on their preparedness, on 
concerns in their communities, regardless of the motivation or 
ideology behind the violence, we want to get in front of that 
and prevent it, and obviously partner with the Federal Bureau 
of Investigation (FBI) to address it if it does occur.
    So I am looking forward to their recommendations. They took 
on the task. Judge Webster, a hero of the United States, is 
still working to help secure the country well into his 90s. He 
received the task, and they are going to follow up on it 
aggressively. So thank you.
    Senator Lankford. No, thank you for stepping up. That is a 
great need. Whether it is in Charlotte, Pittsburgh, California, 
or Texas, we have seen violence in houses of worship, and to be 
able to have some attention there is exceptionally helpful.
    I want to bring up a conversation you and I can have at a 
later time about the use of E-Verify and also I-9. For 
employers that use E-Verify, they also have to use I-9. They 
are really using two different systems. They are going two 
different directions. It is redundant paperwork. We have to 
figure out a way to be able to have our systems have one set, 
whether it is I-9 or E-Verify, but one way to be able to do 
this for the sake of our employers, to be able to verify legal 
status.
    I do need to ask, because you and I have talked before, 
about what I think the term was is ``recycled children'' coming 
across the border, the same child coming across claiming 
multiple families. Are you still seeing that area or are you 
still seeing adults that are claiming to be a child at 17 but 
they are really 19, 20, or 21? And how is that going in 
determination?
    Mr. McAleenan. We are seeing both. Having the same child 
smuggled twice by different adults is not as prevalent yet, but 
we have identified three significant cases where this was an 
intentional strategy, bringing children in, then flying them 
back to Central America, and having another adult take them to 
the border and fake a family relationship. So that is 
unacceptable. We obviously see juveniles well--we see 20-year-
olds and those well into their 20s pretending to be juveniles. 
We have 3,500 cases of fraud, either in family relationship or 
an adult claiming unaccompanied child status so far this year.
    What we are determining, though, with this HSI deployment 
is that the problem might be bigger than we thought it was 
based on the initial findings from their 3 weeks on the ground. 
We also have a rapid Deoxyribonucleic acid (DNA) pilot that is 
ongoing to determine--help us determine family relationships. 
On the first day of that pilot, we had 12 adults come forward 
and say, ``It is not my child.'' The first day of the pilot in 
one location.
    So that is a major concern, and so we need to expand our 
capability to identify those relationships, to attack the 
fraud, and then the technology support for our agents and 
officers to do that.
    Senator Lankford. And find out whose child that is that has 
just been smuggled and removed.
    Mr. McAleenan. Right.
    Senator Lankford. Thank you very much.
    Senator Portman. Thank you, Senator Lankford.
    You all just talked for a moment about this issue of 
attacks on houses of worship, and I wanted to follow up with 
you on that, if I could. In the wake of the terrible tragedies 
in Pittsburgh and San Diego with regard to the synagogues and 
houses of worship in places like Texas and Charleston, you at 
DHS have been supportive of what is called the ``Nonprofit 
Security Grant program.'' However, it is not authorized. We do 
it as a carveout in the appropriations bill. This is funding 
that goes not just for the advice and expertise--and I 
appreciate the fact that the advisory committee is now getting 
going because we need to provide best practices to these 
groups--but it also provides grant funding to be able to ensure 
that you have safer facilities. Whether it is a synagogue or a 
church or community center or school, unfortunately it is 
needed.
    So Senator Peters, who is here with me today, and I have 
just introduced legislation. It is $75 million a year 
authorization, the Nonprofit Security Grant program. Again, it 
is something that has been supported but not authorized.
    One, we would love you to support that legislation so that 
we can have some certainty going forward and begin to really 
build this program to the point that it can provide better 
protection.
    But, second, in terms of where the money goes, there is a 
Government Accountability Office (GAO) report that just came 
out recently that said that your risk assessment they are using 
does not take into account all the diverse threats that are out 
there today.
    So two questions. One, would you support our authorization 
legislation? Second, based on this recent GAO report, are you 
reevaluating the risk assessment formula to make account of 
these diverse threats?
    Mr. McAleenan. Thanks for the question, Senator. First of 
all, I will look at the nonprofit groups and the authorizing 
language. I would be happy to look at that and get back to you 
shortly. That is something I would like the Homeland Security 
Advisory Council to advise us on, what support do we need to 
provide as the Federal Government in this sector going forward. 
So I would be happy to work with you on that.
    In terms of the risk assessment, I am not familiar with 
that GAO recommendation, but I know our departmental processes 
to assess and respond to the GAO recommendations are extensive, 
and we will certainly take that on.
    Senator Portman. This was a 2018 report, so I think it now 
is probably something that your folks have taken a look at and 
analyzed. So if you could get back to us in a couple of weeks 
with your response, that would be terrific.
    Again, sadly, we have this continued threat out there, and 
we need to do more.
    With regard to fentanyl, we talked earlier about what is 
going on on the border, the crystal meth coming over affecting 
my State of Ohio and so many other States, as well as cocaine 
and heroin. Some of the fentanyl comes from Mexico as well. 
Most of it is coming from China. But the major threat we still 
face in this country is directly from China coming into the 
United States through our own U.S. Mail system. That is why we 
passed the Synthetics Trafficking and Overdose Prevention 
(STOP) Act here last year in Congress. We are now trying to 
implement it.
    The post office is behind. They were supposed to have 100 
percent of packages coming from China be able to be screened by 
having this advance electronic data. Unfortunately, it is only 
76 percent as of January. They are supposed to meet a target of 
70 percent of all packages from around the world. 
Unfortunately, they were only at 57 percent.
    This affects you directly because your Customs and Border 
Protection people do not have the ability to be able to get the 
information to screen these packages, pull off the vulnerable 
packages without this advance electronic data.
    So my question to you today is: What are you doing to 
ensure compliance with the STOP Act? Are you coordinating with 
the U.S. Postal Service (USPS) to try to get these percentages 
up to the requirement under the STOP Act? And what more can we 
do to ensure that all aspects of this law are being complied 
with?
    Mr. McAleenan. Sure. Thank you, Senator, and thank you for 
your ongoing support of DHS in this area and really holding us 
and the Postal Service accountable for getting better in the 
mail environment. I think that is critical.
    Seventy-six percent is not where we need it to be for China 
given the threat. It was less than 10 percent 2 years ago, and 
I do think that the support and pressure from the STOP Act and 
others have helped us get better with the Postal Service.
    I can tell you this is a priority diplomatically all the 
way up to the Presidential level, engaging personally with 
President Xi on this issue, our Ambassador, the State 
Department--they are all engaged on China taking harsher 
measures on fentanyl, illicit fentanyl production and shipment 
out of China. That is going to continue to be a diplomatic 
priority and one that I certainly favor from a DHS perspective.
    I do want to just point out, though, that we have gotten a 
lot better with that 76 percent. We are getting more and more 
seizures that have been targeted based on information, and we 
are able to work with the Postal Inspection Service and HSI to 
go and take down that pill press domestically. We have had half 
a dozen cases of significance in that regard just in the last 6 
months. That is something I want to make sure we get better at, 
and we are going to keep pressing.
    I can tell you the Postmaster General Megan Brennan, who I 
have met with a dozen times in the last year, is very focused 
on this mission and working hard to try to increase those 
percentages, but we have got to get better.
    Senator Portman. Well, I appreciate your personal 
commitment to it and your meetings with me over the years, 
really, and meeting with her as well. I just want you to keep 
the pressure on them because this is still the deadliest 
substance affecting us, killing more people than any other 
drug.
    Mr. McAleenan. No question.
    Senator Portman. Senator Peters.
    Senator Peters [presiding.] Thank you, Mr. Chair.
    Mr. McAleenan, recent news articles and litigation have 
highlighted the issue of government watchlists, especially in 
relation to intrusive and lengthy secondary screenings when 
traveling. Michigan, as you know, has a very rich history of 
welcoming diverse communities from around the world, and they 
are an integral part of the life of our State. But, 
unfortunately, many are also frequently subject to disruptions, 
which sometimes can last an hour or more, whenever they travel.
    So my question to you, sir, is: Is the Department studying 
ways to streamline screenings, especially for American citizens 
who are forced to undergo long secondary screenings?
    Mr. McAleenan. We are, and I can tell you I am familiar 
with some of the issues with routine border crossings in 
Detroit, for instance, in your State. The watchlist serves a 
very important purpose for identifying risk, and a border 
crossing event is an important opportunity to see if there is a 
security threat. When that becomes routine, when that becomes 
an issue with a daily crosser who is a U.S. citizen, even if 
there is valid security concerns, that is something we 
generally would modify.
    So after an appropriate number of inspections, appropriate 
coordination with any investigative agency, we will reduce or 
not have that watchlist record fire on primary. So we are 
changing that. It is something we monitor carefully.
    The other challenge we have is very similar names, date of 
birth issues. So somebody having a secondary examination who is 
not actually the subject of the watchlist record, we have put 
in place a primary lookout override function that allows us to 
not hit on that other traveler the next time. So that is 
something that we can always put in place. An individual who 
has concerns should ask for a supervisor, express those 
concerns, and we can address them.
    Senator Peters. What is the Department doing to ensure that 
the staff is conducting secondary screenings that are sensitive 
to many of the cultural as well as religious considerations of 
folks who are being screened?
    Mr. McAleenan. Right. We spend a lot of time on the 
training, and our policies are very clear on this. There is no 
room for bias or discrimination in our secondary procedures, in 
our approaches to interviewing those who are crossing our 
border. If there are concerns, we want to hear a complaint that 
we can follow up on at the supervisory level or with our Office 
of Professional Responsibility if it is a misconduct issue.
    For all of our personnel that are involved in 
counterterrorism response and expertise--we call them our 
``Tactical Terrorism Response Teams''--at ports of entry, they 
go through a higher level of training that involves sensitivity 
issues with questioning, with certain populations and religious 
concerns as well. So that is a commitment I have. I helped 
design that training way back in the Office of Anti-Terrorism 
era when I was the first Director at U.S. Customs Service and 
then CBP. It is a commitment that we have improved over the 
years, and I do think we are doing that quite well. It is 
something we have partnered with the Civil Rights and Civil 
Liberties Office on, and I commit to ensuring that we continue 
that effort.
    Senator Peters. Well, I appreciate that commitment, and we 
have spoken about this issue several times. And as you know, I 
am still hearing an awful lot of complaints, lots of concerns.
    Mr. McAleenan. Right.
    Senator Peters. So I would certainly hope that we can 
continue to work together to find out exactly where those gaps 
are and how we can fill those gaps. So I appreciate your 
commitment.
    Mr. McAleenan. If I could just add, Senator, if you could 
get individual permission from your constituents to share those 
complaints, we are able to follow up and identify if there is a 
challenge or a pattern or training opportunity.
    Senator Peters. Great. We will do that.
    I want to build my last question here on Senator Portman's 
questions relating to attacks on houses of worship and the work 
that I am doing with him on a grant program. But my question 
is: On May 8, Chairman Johnson and I sent you, FBI Director 
Wray, and Attorney General Barr requests for information about 
your Department's use of Federal resources to detect and to 
prevent domestic terrorism. We wrote you during a time of some 
disturbing increases in white supremacist violence, including 
the murder of white nationalists and neo-Nazis in 
Charlottesville, the Tree of Life synagogue attack in 
Pittsburgh, Pennsylvania, Emanuel AME Church in Charleston, Oak 
Creek, Wisconsin, and many, many more attacks that I know you 
are very well aware of.
    Are you concerned about this rise of white supremacist 
violence? And does the DHS have the flexibility in your 
authorities to respond to this evolving threat?
    Mr. McAleenan. So, first, we are very concerned about it, 
and this is going to be a priority of our Targeted Violence and 
Terrorist Prevention Office, which we have just created and 
broadened their mandate in the last 6 weeks at DHS. White 
supremacists, extremist violence is a huge issue and one that 
we need a whole-of-community effort for. It has been the 
ideology that has motivated a number of those faith-based 
attacks that we have been talking about and are going to be a 
focus of our Homeland Security Advisory Council review.
    For DHS, our mission is prevention on this front, 
intelligence sharing with State and locals, and then support to 
Joint Terrorism Task Force (JTTF) investigations by the FBI. 
The FBI is obviously the lead investigative component, but we 
are going to maintain that commitment. Threats evolve. This is 
an evolving and increasingly concerning threat.
    Senator Peters. Well, we requested a response yesterday 
from your office. I understand this morning we have received 
some information, but I need your commitment that we will have 
your full cooperation as both Chairman Johnson and I look at 
this issue. So I appreciate that. Do I have your commitment?
    Mr. McAleenan. You do.
    Senator Peters. With that, Senator Hassan.
    Senator Hassan. Well, thank you, Ranking Member Peters. 
And, again, Mr. Acting Secretary, thank you for spending a long 
morning with us.
    Mr. McAleenan. Sure.
    Senator Hassan. We appreciate it very much.
    I have two questions. They are both follow ups really in a 
way to others. Senator Portman talked about our ongoing battle 
about opioids generally but fentanyl in particular. Last 
Congress, we passed and the President signed into law the 
International Narcotics Trafficking Emergency Response by 
Detecting Incoming Contraband with Technology (INTERDICT) Act, 
which provides more technology for border agents to detect 
fentanyl at the border. When I was at the border last year, I 
heard that agents still did not have access to this equipment. 
Former Secretary Nielsen stated that it was unacceptable when 
she testified before this Committee last May.
    Can you provide an update to the Committee on the status of 
implementing the INTERDICT Act?
    Mr. McAleenan. I believe we have implemented the INTERDICT 
Act at the highest-traffic locations for concerns for fentanyl 
or synthetic opioids, and we have dramatically increased our 
testing capability across the board. That does not mean we have 
it everywhere we need it or in every port of entry. The 
investments in fiscal year 2019, which we are currently 
procuring and deploying, will help augment that, but, 
absolutely, we will look at our laydown to make sure it is 
comprehensive and supports this critical mission area.
    Senator Hassan. So have all the fiscal year 2019 funds been 
spent?
    Mr. McAleenan. Not yet.
    Senator Hassan. Not yet.
    Mr. McAleenan. No, they are currently in the planning and 
deployment phase.
    Senator Hassan. And are all the machines that you have 
operational at this time?
    Mr. McAleenan. Any new machines that were purchased under 
the INTERDICT Act, unless there is a maintenance issue, yes, 
they are operational.
    Senator Hassan. OK. What still needs to be done? Just 
expanding them to other sites?
    Mr. McAleenan. Correct.
    Senator Hassan. OK.
    Mr. McAleenan. We deploy on a risk-based, prioritized 
basis, and so that will be the mail facilities, express 
consignment, the major Southwest Border ports of entry, and 
then we try to get to the rest of the key areas.
    Senator Hassan. OK. And so do you have the funding that you 
need to do that?
    Mr. McAleenan. I believe so. I will report back to you if 
we are missing resources.
    Senator Hassan. Alright. Please do. We would love to stay 
up to date on that with you.
    I also wanted to follow up on the issue of domestic 
terrorism. I greatly appreciate the attention of DHS and my 
colleagues on fighting domestic terrorism against houses of 
worship and faith-based groups. As Senator Peters just 
mentioned, like him, Senator Grassley and I have also sent your 
agency a letter expressing concern over the rise of domestic 
terrorism and requesting more information on what DHS is doing 
to prevent and mitigate this threat to ensure public safety.
    I want to ask you just a series of questions to get a 
better sense of the resources that the Department has dedicated 
to combating domestic terrorism, and since we have limited 
time, let us see if we can do a lightning round.
    I take it that you agree that domestic non-foreign 
terrorist organization-inspired terrorism is on the rise, as 
stated in this Administration's National Strategy for 
Counterterrorism.
    Mr. McAleenan. Yes.
    Senator Hassan. Given the emphasis of domestic terrorism in 
this National Strategy, does DHS have a 2019 strategy 
specifically addressing the rise in domestic terrorism threats?
    Mr. McAleenan. So we are working on a formal strategy, but 
we do have that as a priority operational effort already.
    Senator Hassan. And as you work on that formal strategy, 
once you get it done, I take it you will share it with the 
Committee.
    Mr. McAleenan. Yes.
    Senator Hassan. On a related note, what percentage of the 
Department's budget is specifically dedicated to addressing 
domestic terrorism? And how does that amount compare to 
previous years?
    Mr. McAleenan. I do not have that information here, but we 
can get back to you on that.
    Senator Hassan. Thank you. I would love it if you would get 
back to us on that.
    How many intelligence analysts at DHS headquarters tasked 
with the primary responsibility of covering domestic terrorism 
are there?
    Mr. McAleenan. I will get back to you on that as well. But 
what I can tell you is that under Under Secretary Glawe, he has 
forward-deployed a number of the intel analysts to work 
directly embedded with State and locals around the country, not 
only in our Fusion Centers but in key sheriffs' and police 
departments around the country, and that is one of their focus 
areas.
    Senator Hassan. I will ask a similar update about how many 
policy and program staff you have exclusively focusing on 
domestic terrorism.
    Mr. McAleenan. OK.
    Senator Hassan. I share the concern that it is on the rise 
here. I have been concerned that resources that once were 
devoted to domestic terrorism have been taken and used other 
places, and it is one thing to say we care about it and are 
committed to it, which I believe and I understand it is another 
thing to have the resources, personnel, and focus to do it. So 
I will look forward to that update from you, and thank you.
    Mr. McAleenan. Thank you.
    Senator Peters. Thank you, Senator Hassan.
    We have 3 minutes remaining in the hearing. Senator Rosen, 
they are yours.
    Senator Rosen. All right. Well, let us see how fast I can 
talk.
    I want to talk about Temporary Protected Status (TPS) just 
a tiny bit. There have been serious allegations of improper 
political interference in the decisionmaking process 
surrounding the termination of TPS for people from El Salvador, 
Nicaragua, and several other countries. Thousands of them live 
in Nevada. So as you know, the Immigration and Nationality Act 
provides for TPS status in cases where the Secretary of DHS 
finds that civil unrest, violence, natural disasters, or any 
other temporary conditions preventing foreign nationals from 
returning safely home to their countries or where their home 
countries cannot absorb them.
    A Federal judge has recently written in deciding to 
terminate TPS status of Haiti, El Salvador, Nicaragua, and 
Sudan, they changed the criteria applied by the prior 
Administrations and did so without any explanation or 
justification in violation of the Administrative Procedure Act. 
I am going to go quickly. I have two questions.
    I know that these decisions are currently the subject of 
litigation, but since you have taken over the Department, have 
you looked into the decisionmaking process for TPS status 
determination? And will you commit to cooperating with the 
Inspector General with that investigation looking into improper 
political influence in the decisionmaking process for changing 
this criteria?
    Mr. McAleenan. So understanding the importance of TPS 
decisionmaking, I have in my first 6 weeks asked when our next 
decision is coming up. But I have been informed about the 
ongoing litigation, and it is something we will do carefully, 
applying the standards appropriately, if and when the next TPS 
decision is presented.
    Senator Rosen. Thousands of people in my State are 
depending on a fair decision on this, so I look forward to 
working with you. Thank you for staying extra.
    Mr. McAleenan. Thank you, Senator.
    Senator Peters. Thank you, Acting Secretary McAleenan. We 
appreciate you being here today. We appreciate your testimony, 
and I will look forward to working with you in the months and 
years ahead.
    The hearing record will remain open for 15 days, until June 
7 at 5 p.m., for the submission of statements and questions for 
the record. And with that, the hearing is adjourned.
    [Whereupon, at 11:11 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
